<html>
<title> - MAKING THE CASE FOR CLIMATE ACTION: CREATING NEW JOBS AND CATALYZING ECONOMIC GROWTH</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]







                  MAKING THE CASE FOR CLIMATE ACTION:
            CREATING NEW JOBS AND CATALYZING ECONOMIC GROWTH

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE 
                             CLIMATE CRISIS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD
                             APRIL 20, 2021

                               __________

                            Serial No. 117-3


                            www.govinfo.gov 
   Printed for the use of the Select Committee on the Climate Crisis 
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
44-754                   WASHINGTON : 2021
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                    One Hundred Seventeenth Congress

                      KATHY CASTOR, Florida, Chair
SUZANNE BONAMICI, Oregon             GARRET GRAVES, Louisiana,
JULIA BROWNLEY, California             Ranking Member
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado                 DAN CRENSHAW, Texas
VERONICA ESCOBAR, Texas              ANTHONY GONZALEZ, Ohio
                                 ------                                
                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov 
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
    Prepared Statement...........................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     4
Hon. Doris Matsui, a Representative in Congress from the State of 
  California, prepared statement, submitted for the record by Ms. 
  Castor.........................................................    65

                               WITNESSES

Hon. Philip N. Bredesen, Executive Chairman of the Board, 
  Clearloop Corporation; and Former Governor, State of Tennessee
    Oral Statement...............................................     6
    Prepared Statement...........................................     8
Paul Lau, CEO and General Manager, Sacramento Municipal Utility 
  District (SMUD)
    Oral Statement...............................................    10
    Prepared Statement...........................................    12
Leticia Colon de Mejias, Founder, Energy Efficiency Solutions; 
  Policy Co-Chair, Building Performance Association; and 
  President, Green Eco Warriors
    Oral Statement...............................................    15
    Prepared Statement...........................................    18
Heather Reams, Executive Director, Citizens for Responsible 
  Energy Solutions (CRES)
    Oral Statement...............................................    25
    Prepared Statement...........................................    26

                       SUBMISSIONS FOR THE RECORD

Press release from SEIA, ``Solar Companies Unite to Prevent 
  Forced Labor in the Solar Supply Chain,'' submitted for the 
  record by Ms. Castor...........................................    54
Fact sheet from the Obama Administration's White House Council on 
  Economic Advisors, FACT SHEET: The Recovery Act Made The 
  Largest Single Investment In Clean Energy In History, Driving 
  The Deployment Of Clean Energy, Promoting Energy Efficiency, 
  And Supporting Manufacturing, submitted for the record by Ms. 
  Castor.........................................................    54
Letter from the Outdoor Business Climate Partnership to the 
  Select Committee in support of April 15, 2021 hearing, 
  submitted for the record by Ms. Castor.........................    54
Letter from the We Mean Business Coalition to President Biden in 
  support of U.S. climate target, submitted for the record by Ms. 
  Castor.........................................................    55
Letter from environmental groups to Congressional leadership on 
  economic recovery legislation, submitted for the record by Ms. 
  Castor.........................................................    55
Letter from the Solar Energy Industry Association (SEIA) to Chair 
  Castor regarding the Select Committee's April 20, 2021 hearing, 
  submitted for the record by Ms. Castor.........................    63
Report from Rhodium Group, ``Pathways to Build Back Better: Jobs 
  from Investing in Clean Electricity,'' submitted for the record 
  by Ms. Castor..................................................    64

                                APPENDIX

Questions for the Record from Hon. Kathy Castor to Hon. Philip N. 
  Bredesen.......................................................    66
Questions for the Record from Hon. Garret Graves to Hon. Philip 
  N. Bredesen....................................................    67
Questions for the Record from Hon. Kathy Castor to Paul Lau......    67
Questions for the Record from Hon. Kathy Castor to Leticia Colon 
  de Mejias......................................................    70
Questions for the Record from Hon. Garret Graves to Leticia Colon 
  de Mejias......................................................    74

 
                  MAKING THE CASE FOR CLIMATE ACTION: 
                    CREATING NEW JOBS AND CATALYZING 
                            ECONOMIC GROWTH

                              ----------                              


                        TUESDAY, APRIL 20, 2021

                          House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 12:01 p.m., via 
Zoom, Hon. Kathy Castor [chairwoman of the committee] 
presiding.
    Present: Representatives Castor, Bonamici, Brownley, 
Huffman, McEachin, Levin, Casten, Escobar, Graves of Louisiana, 
Palmer, Carter, Miller, and Gonzalez of Ohio.
    Ms. Castor. All right. Good afternoon. The committee will 
come to order.
    Without objection, the chair is authorized to declare a 
recess at any time. As a reminder, members participating in a 
hearing remotely should be visible on the camera throughout the 
hearing.
    As with in-person meetings, members are responsible for 
controlling their own microphone. Members can be muted by 
staff, but only to avoid inadvertent background noise.
    In addition, statements, documents, or motions must be 
submitted to the electronic repository, to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3a0b0b0b0fda1b6a3bca0baa7bca1aa93beb2babffdbbbca6a0b6fd">[email&#160;protected]</a>
gov.
    Finally, if any members or witnesses have any technical 
problems, please inform the committee staff immediately.
    And thanks again for being here today. Thanks for joining 
this hearing remotely. We all look forward to getting back to 
normal. It is a little bit down the road, but we all look 
forward to that time.
    Last week, we discussed the physical, economic, and health 
impacts of the climate crisis and the escalating costs of 
inaction.
    Today, we are looking at the benefits for our country and 
workers, all of the benefits that come with solving the climate 
crisis.
    So I will recognize myself for 5 minutes for an opening 
statement.
    Well, happy Earth Week, and happy U.S. Climate Action Week. 
I am inspired by the growing consensus across the economy, 
across the entire country, for clean energy solutions and jobs.
    Whether it is public health experts, union leaders, 
investors, scientists, farmers, or executives at America's 
largest companies, we have grown an enormous coalition that is 
ready to solve the climate crisis.
    Just last week, some of America's largest employers, 
including Walmart, McDonald's, Target, Starbucks, and hundreds 
of other businesses and investors, announced their support for 
an ambitious new target to reduce our carbon emissions over the 
next decade.
    In just a couple of days, President Biden will unveil that 
new target as he welcomes global heads of state to his Leaders 
Summit on Climate and urges other countries to go farther and 
faster.
    America is ready not only to rejoin the global effort to 
keep global climate impacts in check, but lead again. Why? 
Because we know we can create millions of jobs and economic 
opportunities across America.
    Last week, we held a very important hearing on the cost of 
failing to act on the climate crisis. So it is only fitting 
that today's hearing will focus on the enormous economic 
benefits of climate solutions.
    Building a clean economy will create millions of good-
paying jobs across every ZIP Code in America, it will jump-
start our economic recovery, and ensure that we can compete in 
a world that increasingly runs on clean technologies. Plus, it 
will strengthen our resilience while helping reduce costs to 
our communities and our neighbors back home.
    I cannot overstate the importance of reducing those risks 
and costs. Eleven years ago today, an oil rig operated by BP in 
the Gulf of Mexico exploded, killing 11 people and ultimately 
gushing 4 million barrels of oil into Gulf waters.
    The BP Deepwater Horizon oil disaster cost over $60 billion 
to clean up. It cost Florida billions of dollars in lost 
tourism revenue.
    And I had to look those business owners, mom-and-pop shops 
on the coast, in the eye during this disaster as that gushed 
day after day into the Gulf and really hurt our economy as we 
were trying to recover from the Great Recession.
    It became a very painful reminder of the need to move to 
cleaner energy sources instead of waiting for the next disaster 
to strike.
    It is time we put Americans to work unleashing that 
potential, which will help us avoid those type of catastrophes. 
That is what the Democrats on this committee proposed last year 
in our Climate Crisis Action Plan. And, according to an 
independent analysis of our Action Plan, we could save 
Americans more than a trillion dollars annually by 2050 by 
solving the climate crisis.
    That is because switching to cleaner sources of energy will 
unleash enormous economic benefits and health benefits for 
America's families. And we can build that future by employing 
millions of workers and ensuring they have safe working 
conditions and family-sustaining wages.
    We have a lot of work to do. Whether it is laying new 
transmission lines, replacing lead pipes, or plugging millions 
of abandoned oil wells, we will make sure that those job 
opportunities go to our middle-class workers.
    We can also revitalize the American manufacturing sector 
through smart investments and 21st century technologies, 
including electric vehicle chargers and batteries that will 
power school buses, postal trucks, and more.
    Congress has an opportunity to grow jobs across the country 
as we advance President Biden's American Jobs Plan.
    By invoking America's can-do spirit, rolling up our sleeves 
to solve the climate crisis, we will help ourselves, and we 
will help the rest of the world.
    The United States has emitted more carbon pollution than 
any other country in history, accounting for 25 percent of 
historical emissions.
    While we have cut emissions in recent years, we know from 
climate science that we need to do more and invent and 
manufacture the technologies in the USA to provide the 
solutions to the world.
    Today, we have a great slate of witnesses who will 
highlight the ways we can do that, reducing pollution, driving 
economic growth, and creating good-paying jobs for all 
Americans.
    I look forward to today's discussion.
    At this point, I will recognize Ranking Member Garret 
Graves for his opening statement.
    You are recognized for 5 minutes.
    [The statement of Ms. Castor follows:]

                Opening Statement of Chair Kathy Castor

            Hearing on ``Making the Case for Climate Action:
           Creating New Jobs and Catalyzing Economic Growth''

                 Select Committee on the Climate Crisis

                             April 20, 2021

                        As prepared for delivery

    Welcome everyone. And happy U.S. Climate Action Week! I'm so 
inspired by the level of support we've seen across the economy for 
clean energy solutions and jobs.
    Whether it's public health experts, union leaders, investors, 
scientists, farmers, or executives at America's largest companies, 
we've grown an enormous coalition that is ready to solve the climate 
crisis. Just last week, some of America's largest employers--including 
Walmart, McDonald's, Target, and Starbucks--announced their support for 
an ambitious new target to reduce our emissions over the next decade. 
In just a couple of days, President Biden will unveil that new target, 
as he welcomes global heads of state to his Leaders Summit on Climate. 
America is ready not only to rejoin the global effort to keep climate 
impacts in check but lead again. Why? Because we can create millions of 
jobs and economic opportunities across America.
    Last week, we held an important hearing on the costs of failing to 
act on the climate crisis. So it's only fitting that today's hearing 
will focus on the enormous economic benefits of climate solutions. 
Building a clean economy will create millions of good-paying jobs 
across every zip code in America. It will jump-start our economic 
recovery and ensure we can compete in a world that increasingly runs on 
clean technologies. And it will strengthen our resilience while helping 
reduce costs to our communities.
    I can't overstate the importance of reducing those risks and costs. 
Eleven years ago today, an oil rig operated by BP in the Gulf of Mexico 
exploded, killing 11 people and ultimately gushing 4 million barrels of 
oil into Gulf waters. The BP oil disaster cost over $60 billion dollars 
to clean up. It cost Florida billions in lost tourism revenue. And it 
became a painful reminder of the need to move to cleaner sources of 
energy, instead of waiting for the next disaster to strike.
    It's time we put Americans to work unleashing that potential, which 
will help us avoid future catastrophes. That's what the Democrats on 
this committee proposed last year in our Climate Crisis Action Plan. 
According to an independent analysis of our Action Plan, we could save 
Americans more than a trillion dollars annually by 2050 by solving the 
climate crisis. That's because switching to cleaner sources of energy 
will unleash enormous economic benefits for America's families, 
including health benefits. As we build that future, we'll employ 
millions of workers and ensure they have safe working conditions and 
family-sustaining wages.
    We have a lot of work to do. Whether it's laying new transmission 
lines, replacing lead water pipes, or plugging millions of abandoned 
oil wells across the United States, we'll make sure those job 
opportunities go to our middle-class workers. We can also revitalize 
the U.S. manufacturing sector through smart investments in 21st century 
technologies, including electric vehicle chargers and batteries that 
will power school buses, postal trucks, and more.
    Congress has the opportunity to grow jobs across the country, as we 
advance President Biden's American Jobs Plan. By invoking America's 
can-do spirit, and rolling up our sleeves to solve the climate crisis, 
we will help ourselves and the rest of the world. The United States has 
emitted more carbon pollution than any other country in history, 
accounting for 25% of historical emissions. While we've cut emissions 
in recent years, we know from climate science that we need to do even 
more, and invent and manufacture the technologies in the U.S.A. to 
provide solutions to the rest of the world.
    Today, we have a great slate of witnesses who will highlight the 
ways we can do that, reducing pollution, driving economic growth, and 
creating good-paying jobs for all Americans.
    I look forward to today's discussion.

    Mr. Graves. All right. Thank you, Madam Chair. I appreciate 
it.
    I want to thank all the witnesses for being here today and 
the members of our committee.
    I also want to remind, as our chair did last week, that our 
colleague, Dan Crenshaw, remains in, I guess, in the after-
treatment for his eye issue. And I would just urge all of you 
please keep him in your prayers for his full recovery.
    Madam Chair, creating American jobs, charting a path for a 
clean energy future, reducing emissions should be something 
that all of us on this committee, regardless of party 
affiliation, ideologies, should be supportive of.
    Let me say that again. Job creation, creating jobs here in 
America, reducing emissions, charting a path of an America-
based resource, clean energy future is something that we should 
all agree upon.
    But we also have to keep in mind, in order to realize some 
of the benefits that you just cited, this is not something that 
we can solely do domestically. This truly is a global issue. 
These are global emissions. The emissions must be reduced 
across the globe, not just those in the United States.
    There are two primary kind of path components that we need 
to be very thoughtful of as we move forward. We have got to 
develop the innovative energy technologies. And, Madam Chair, 
you even cited the innovation of this sort of American spirit 
that we have here, where we are able to create these 
technologies, where we can create an environment where we let 
innovators innovate.
    But we have got to do it in a way that protects the 
intellectual property, that grounds the jobs in the United 
States and doesn't export them overseas, that doesn't allow for 
this pirating or theft of our intellectual property, of our 
innovative ideas.
    We have got to incentivize our workers here to be able to 
create and retain the jobs here. We have got to ensure that the 
technologies are cost competitive, that they are exportable, 
because only then will we actually see this global reduction.
    Secondly, we have got to develop and utilize American 
resources. Madam Chair, I noted at the last hearing that, 
through 2050, we are going to see a 40 percent increase in 
global demand for natural gas, for example.
    As we have cited from the National Energy Technology Lab's 
analysis, U.S. natural gas has a much lower emissions profile 
than that of other countries.
    And so, if there is going to be a 40 percent increase in 
demand globally, let's ensure that that demand is met by U.S. 
resources. Let's ensure, as we continue blazing trails and 
being the global leader in reducing emissions, it is based upon 
U.S. resources.
    The Federal Government doesn't do a lot of things well. It 
is a very large organization. There is a lot of red tape 
involved. The last thing we need to have the Federal Government 
doing is picking technological winners and losers.
    If we can reduce emissions through unconventional means, 
then we should be reducing emissions and pursuing clean energy 
strategies regardless of the source. And I am concerned that 
some of the paths forward, trying to have the Federal 
Government choosing technological winners and losers--and I 
only have to cite examples such as Solyndra--as to why that 
doesn't make sense for America and for American taxpayers.
    Madam Chair, we have often talked about and I have heard 
many people on this committee cheer the successful outcome of 
the Paris Accords. I want to remind everyone, the Paris Accords 
codify a global increase in emissions. We are all here talking 
about reducing emissions. We should not be celebrating global 
accords that result in the emissions actually going in the 
wrong direction.
    And that is why I was very excited that Secretary Kerry was 
engaging, for example, China, that has increased emissions four 
times for every one ton--four tons for every one ton we have 
reduced here in America.
    Madam Chair, in closing, I have cited some of the lessons 
learned in terms of flawed paths forward that have resulted in 
lessons learned from us, the Federal Government, not picking 
winners and losers, making sure the global accords reduce 
emissions, and I have got to point out one other.
    Even in the infrastructure package that is being proposed--
and I know that all of us on this committee support 
infrastructure--a recent analysis by the National Association 
of Manufacturers has indicated that is actually going to result 
in a million job losses in just the first 2 years and projected 
to result in a loss of 600,000 American jobs each year for 10 
years following.
    So, Madam Chair, we have got to make sure that we are 
pursuing this in a way that is going to result in jobs not just 
being created, but being retained here in the United States.
    Thank you. I yield back.
    Ms. Castor. Thank you.
    Without objection, members who wish to enter opening 
statements into the record have 5 business days to do so.
    Now I would like to welcome our witnesses. We have a great 
panel today. This is a panel that is going to provide us with 
great insight on how we can create jobs and catalyze economic 
growth as we move forward on climate solutions.
    First, the Honorable Phil Bredesen is the former Governor 
of Tennessee, the former Mayor of Nashville, and a successful 
entrepreneur. He founded Silicon Ranch, one of the largest 
solar independent power producers in the country.
    Governor Bredesen is now the Executive Chairman of 
Clearloop Corporation, a startup in Nashville that partners 
with companies to offset their emissions by building new solar 
projects in American communities that are looking for new 
economic development opportunities.
    Next, Mr. Paul Lau, highly recommended from our colleague, 
Congresswoman Doris Matsui of Sacramento. He is the CEO and 
General Manager of the Sacramento Municipal Utility District. 
He was previously the utility's Chief Grid Strategy and 
Operations Officer, where he managed power supply and 
distributed energy resources. Mr. Lau is also a board member of 
the Electric Transportation Community Development Corporation.
    SMUD has a long history of innovation. And, again, 
Congresswoman Matsui is so proud to represent you all in the 
Congress.
    Ms. Leticia Colon de Mejias is the founder and CEO of 
Energy Efficiency Solutions, a Connecticut-based small business 
providing energy conservation services. She also is the Policy 
Co-chair of the Building Performance Association and the 
founder of Green Eco Warriors, a nonprofit focused on 
environmental education for young people.
    Finally, Ms. Heather Reams is the Executive Director of 
Citizens for Responsible Energy Solutions, a nonprofit 
organization that engages policymakers and the public on 
energy, economic, and environmental security issues. She is 
also the Chair of the National Clean Energy Week, which is an 
annual forum for discussions around innovative technologies and 
policies.
    Without objection, the witnesses' written statements will 
be made part of the record.
    With that, Governor Bredesen, you are now recognized to 
give a 5-minute presentation of your testimony. Welcome.
    And don't forget to unmute.

   STATEMENTS OF THE HONORABLE PHILIP N. BREDESEN, EXECUTIVE 
CHAIRMAN OF THE BOARD, CLEARLOOP CORPORATION, FORMER GOVERNOR, 
    STATE OF TENNESSEE; PAUL LAU, CEO AND GENERAL MANAGER, 
SACRAMENTO MUNICIPAL UTILITY DISTRICT (SMUD); LETICIA COLON DE 
   MEJIAS, FOUNDER, ENERGY EFFICIENCIES SOLUTIONS; POLICY CO-
  CHAIR, BUILDING PERFORMANCE ASSOCIATION; AND HEATHER REAMS, 
 EXECUTIVE DIRECTOR, CITIZENS FOR RESPONSIBLE ENERGY SOLUTIONS 
                             (CRES)

         STATEMENT OF THE HONORABLE PHILIP N. BREDESEN

    Mr. Bredesen. You would think by this point I would know 
that.
    I would say, first of all, thank you, Chair Castor, Ranking 
Member Graves, and each of the select committee members for the 
invitation to be here today.
    Policy debates in the public sector seem to always be 
surrounded by a lot of noise and irrelevant information. It is 
the nature of the beast. But climate action seems to attract 
even more than most.
    As a former governor, I sympathize with the challenge that 
members of the committee face, taking a complex issue like this 
and cutting through the noise to try to understand the big 
shapes.
    In my testimony today, I want to describe what I believe to 
be two of those big shapes in this issue.
    The first one is this: the urgent need to better focus our 
efforts. I respectfully say to everyone who cares about climate 
action that we need to stop chasing every glittering idea and 
instead ask ourselves a question: Where is the low-hanging 
fruit? Where is the first place to go?
    I believe that question has an answer, and that is the 
lowest-hanging fruit is the generation of electricity in this 
country. Power generation, even after all the progress we have 
made with renewables and with natural gas, still creates 25 
percent of all greenhouse gas emissions in the United States.
    To put that in perspective, our grid today produces more 
greenhouse gases than every car on the road and every airplane 
in the sky in America. The rise of electric cars and the power 
demand that follows will put an even bigger strain on this 
grid.
    The electric grid is an enormous opportunity for 
decarbonization. The tools are already in place. The technology 
is mature. The economics makes sense. Renewable energy has been 
around a while. It is no longer this year's show horse. But it 
really is the workhorse that we need right now to get started 
in a serious way.
    The second big shape is simply the one that the select 
committee is addressing, that climate action is a potent tool 
for economic development and job creation. A coalition built 
around legislative and regulatory action to compel climate 
action, I believe, is too narrow for us to get the job done 
today.
    Fortunately, there is a broader one waiting to be built 
around creating jobs, creating new tax base, and opportunities 
for the next generation of entrepreneurs. I think the challenge 
we have is to convince skeptics that the economic benefits are 
real and they are not just talking points.
    Solar generation is a good example. By its nature, it is 
highly distributed, with the benefits spread broadly across the 
country rather than dotted it in a few places like new 
factories would be.
    Large tracts of land are needed, and that means rural and 
often distressed communities are great candidates for these 
investments. In those communities, it creates much- appreciated 
local jobs while it is being built. And, once it is built, it 
provides tangible local benefits, including, importantly, huge 
support for the tax base in these areas for decades to come.
    The way that energy is generated in America is really 
undergoing a fundamental shift that is going to continue for 
decades. In fact, 2020 was the third consecutive year for 
record-setting new corporate investment and new renewable 
energy projects here in North America. Yet the distribution of 
clean energy investments is often disjointed and uneven.
    In the United States, the simple fact of turning on the 
light can have a significantly bigger carbon impact if you live 
in Nashville, Tennessee, for example, than if you live in San 
Francisco. That is because the electric grid is broken up into 
a number of regions, and they each have a number of different 
power sources.
    Two years ago, as the chair mentioned, I helped co-found a 
startup called Clearloop, with the goal of cleaning up the grid 
and expanding access to clean energy by opening up investment 
in solar to many more kinds of companies and organizations.
    We are shifting the way corporate investments reduce carbon 
by trying to bring solar projects to regions of the country 
that have the most carbon-intense electric generation. We 
believe that doing things this way will achieve deeper and 
faster emissions reductions, and also brings good-paying clean 
energy jobs and economic investment in regions of the country 
that need them.
    This week, Clearloop is announcing that Silicon Valley-
based Intuit, Philadelphia's Dropps, Seattle's CoolPerx, 
Nashville's NHL team, the Predators, are partnering with us to 
help fund the construction of a solar project in Jackson, 
Tennessee. That is an area between Memphis and Nashville, in 
the heart of rural west Tennessee.
    We are just getting started, but what we are proving with 
Clearloop is that corporate climate action promotes real 
economic investment in communities who are looking to attract 
investment and talent. And I believe that, if we focus and use 
this change to build American infrastructure where it is most 
needed, we can help the American people, we can help our 
nation, and we can help our planet.
    Thank you.
    [The statement of Mr. Bredesen follows:]

 Prepared Statement of Hon. Philip N. Bredesen, Executive Chairman of 
          Clearloop Corporation and Former Tennessee Governor

        Before the House Select Committee on the Climate Crisis

                 ``Making the Case for Climate Action: 
           Creating New Jobs and Catalyzing Economic Growth''

                 Tuesday, April 20, 2021 12:00 p.m. ET

    First, thank you Chair Castor, Ranking Member Graves and each of 
the Select Committee members for the invitation to be here today.
    Policy debates in the public sector seem to be always surrounded by 
a lot of noise and irrelevant information--it's the nature of the 
beast--but climate action seems to attract even more than most. As a 
former Governor, I sympathize with the challenge you face: to take a 
complex issue like this, cut through the noise and try to see the 
underlying big shapes.
    In my testimony today, I want to step back with you and describe to 
you what I believe to be a couple of those big shapes.
    The first one is this: the urgent need to better focus our effort. 
I respectfully say to everyone who cares about climate action: stop 
chasing every glittering new idea and instead ask a question. There's a 
lot of ideas around, but which of them will really make a difference? 
Where's the low-hanging fruit?
    That question has an answer: The lowest-hanging fruit is the 
generation of electric power. Power generation, even after all the 
progress we've made with renewables and conversion to natural gas in 
the past decade, still creates 25% of all greenhouse gas emissions in 
the United States.\1\ To put that in perspective, American power 
generation produces more greenhouse gases than every car on the road 
and every airplane in the sky. Half-again as much. The coming boom of 
electric cars and the power demand that follows will make the carbon 
emissions from our power sector even worse.
---------------------------------------------------------------------------
    \1\ https://www.epa.gov/ghgemissions/inventory-us-greenhouse-gas-
emissions-and-sinks
---------------------------------------------------------------------------
    The electric grid is an enormous opportunity for decarbonization 
and an easy one to clean up with the tools that are already in place. 
The technology is mature--nobody has to invent anything. Solar panels, 
for example, are efficient, easy to manufacture and continue to get 
better. And the economics are there also: solar power today is the low-
cost alternative. Renewable energy has been around a while; it's no 
longer this year's show-horse. But it's what we need right now: a 
genuine workhorse we can ask and trust to do the job.
    The second big shape is simply the one that this Select Committee 
is addressing: that climate action is a potent tool for economic 
development and job creation. In business terms, climate action 
shouldn't be thought of as a cost center, but as a revenue and profit 
center. A coalition built around legislative and regulatory action to 
compel climate action is too narrow. Fortunately, there's a far broader 
one waiting to be built around creating jobs, a new tax base, and 
opportunities for the next generation of entrepreneurs. The challenge 
we have is to convince skeptics that the economic benefits are real and 
not just talking points.
    While there are many opportunities to create jobs and wealth 
through climate action, renewable energy can be particularly effective 
in this regard. Solar generation is a good example: by its nature it is 
highly distributed, with the benefits spread broadly across the country 
rather than being dotted in a few places like new factories. It needs 
large tracts of land that are not too expensive, and that means rural 
and often poorer communities are great candidates for these 
investments. In those counties, it creates much appreciated local jobs 
while it is being built--a large-scale solar facility might use 500 or 
600 workers during its construction.
    Once a solar project is built, it provides tangible local benefits 
for decades. The good news is that clean energy has been on the rise 
year over year over the past decade. In fact, after leaving the 
governor's office a decade ago, I helped found a company, Silicon 
Ranch, that today boasts over 1 GW of owned and operated solar projects 
across the U.S.
    With Silicon Ranch, we built solar farms across the South where 
they oftentimes become the largest taxpayer in the county the day they 
open. In some of these communities, a solar power plant is the first 
substantial industrial investment in generations. The taxes the project 
pays go directly to badly-needed new investments, as a solar plant uses 
few public services--it adds no costs to law enforcement, or fire 
protection, or the school system. This led to a county giving its 
teachers a raise as a direct result of the new tax revenues produced by 
the solar project investment.
    In Georgia, Governor Kemp, a conservative Republican who has 
expressed deep skepticism about global warming, has come to several of 
our announcements. He comes because he's seen how these clean energy 
projects are boosting some of the poorer rural counties in his state. 
His economic development team prioritizes solar development in Georgia 
for precisely this reason.
    The way in which energy is generated in America is undergoing a 
fundamental shift that will continue for decades. Clean energy growth 
has been fueled by private sector investment with large tech companies 
and manufacturers becoming the largest purchasers of renewable energy 
projects through Power Purchase Agreements. In fact, 2020 was the third 
consecutive year for record-setting corporate investment in new 
renewable energy projects in North America.\2\
---------------------------------------------------------------------------
    \2\ https://rebuyers.org/deal-tracker/
---------------------------------------------------------------------------
    Yet, the distribution of clean energy investments is often 
disjointed and uneven. In the United States, the simple act of turning 
on the lights or plugging in your electric vehicle can have a 
significantly bigger carbon impact if you live in Nashville, Tennessee, 
than if you lived in San Francisco, California. That's because the 
electric grid is broken up into several grid regions, all with a 
different mix of power sources.\3\ In fact, every megawatt hour of 
electricity consumed by the California Delegation's constituents 
generates about 500 lbs. CO<INF>2</INF>, while constituents in Chair 
Castor's and Ranking Member Graves' districts get hit with almost 
double the carbon pollution every time they flip on the lights for the 
same amount of time.\4\
---------------------------------------------------------------------------
    \3\ https://www.nytimes.com/interactive/2020/10/28/climate/how-
electricity-generation-changed-in-your-state-
election.html?utm_campaign=Carbon%20Brief%20Daily%20Briefing&utm_content
=
20201029&utm_medium=email&utm_source=Revue%20Daily
    \4\ https://www.epa.gov/sites/production/files/2021-02/documents/
egrid2019_summary_tables.pdf
---------------------------------------------------------------------------
    Two years ago, I helped co-found a startup called Clearloop with 
the goal of cleaning up the grid and expanding access to clean energy, 
starting in our own backyard. After realizing how partisan politics 
were corroding common sense action, I partnered with two younger 
Tennesseans, who also believed that we shouldn't wait around for others 
to help, instead we needed to take matters into our own hands. We 
fundamentally believe that the innovation and benefits of new clean 
energy investments should reach all communities around our country 
equally. We recognized that between tech companies and small 
businesses, there are lots of companies that want to take climate 
action, but need more ways to invest in these new clean energy 
projects.
    The world of corporate sustainability is full of well intentioned 
people, but many traditional climate solutions have simply nibbled at 
the edges of climate change with programs that lack transparency and 
bold action. Clearloop partners with companies big and small to offset 
their carbon footprint and expand access to clean energy by cleaning up 
the grid with the construction of new solar capacity in American 
communities otherwise getting left behind. Clearloop is shifting the 
way corporate investments reduce carbon by bringing solar projects to 
regions of the country with disproportionately carbon-intense 
electricity generation (i.e. dirty grids).\5\ We believe doing things 
this way will achieve deeper, and faster emissions reductions. It will 
also bring good-paying, clean energy jobs, and spur economic investment 
in regions of the country that vitally need them.
---------------------------------------------------------------------------
    \5\ http://map.clearloop.us/
---------------------------------------------------------------------------
    This week, Clearloop is announcing that Silicon Valley based 
Intuit, Philadelphia based Dropps, Seattle based CoolPerx, and 
Nashville's NHL team, Nashville Predators are partnering with us to 
help fund the construction of a 1 MW solar project in Jackson, 
Tennessee. A city nestled in between Memphis and Nashville and at the 
heart of rural west Tennessee.
    We're just getting started and have a long way to go as a small 
startup, but what we're proving with Clearloop is that corporate 
climate action can spur real economic investment in communities looking 
to attract more investment and talent. By being intentional about where 
we are building these solar projects, focusing on decarbonization, but 
also an emphasis on distressed communities, these ``unsexy'' 
infrastructure investments are the vehicle for growing the tax base in 
communities, and building workforce development programs for trades 
like electricians.
    If we focus, and use this change to build American infrastructure 
where it's most needed, we can help the American people, our nation and 
our planet.
    How can Congress help? Here are some practical steps, not 
politicized overarching promises or big spends:
    <bullet>  Carve out and cap the capital gains taxes for landowners 
selling land for clean energy projects.
    <bullet>  Allow FERC to reward utilities that publicize their price 
for energy for longer than 5 years.
    <bullet>  Reward utilities that publicly share the load data for 
interconnection and make the queue system public and transparent.

    Ms. Castor. Thank you, Governor.
    Mr. Lau, you are recognized for 5 minutes.

                     STATEMENT OF PAUL LAU

    Mr. Lau. Chair Castor, Ranking Member Graves, and members 
of the committee, thank you for holding this important hearing 
and for the opportunity to testify.
    My name is Paul Lau, and I am the CEO of the Sacramento 
Municipal Utility District, or SMUD as we are called.
    SMUD is the Nation's sixth-largest community-owned not-for-
profit utility, serving 1.5 million people in and around 
Sacramento, California. We have provided world-class 
reliability at affordable rates while protecting the 
environment for more than 70 years.
    We set goals that are more aggressive than the states, and 
doing so helped SMUD achieve many important firsts, including 
becoming the first large California utility to have at least 20 
percent of our energy come from renewables. And, today, our 
power supply is 50 percent carbon free.
    It is clear to me what we have done to be a leader simply 
isn't enough. I am disappointed and disheartened to report that 
Sacramento is the fifth-worst city for ozone pollution. Our 
children are 30 percent more likely to suffer from asthma than 
the average American kid. Thirty percent is unconscionable.
    I am proud and excited to announce that our board of 
directors has approved a bold and ambitious goal to completely 
eliminate carbon emissions from our power supply by 2030 
without compromising reliability or affordability. It is the 
most ambitious goal of any large utility in the U.S.
    But it is much more than that. It is also a roadmap for 
others to follow in pursuing the Biden administration's goal of 
achieving a clean power sector by 2035, with benefits for all.
    To get to zero, we will increase our renewables and battery 
storage by 350 percent. We will retire two gas plants and 
retool the remaining three. And we will more than double our 
investments in energy efficiency and electrifications.
    We will continue to support our customer investments in 
rooftop solar and batteries, and pioneer new technologies, like 
vehicle-to-grid and virtual power plants, because we know our 
customers are an important part of the solution.
    Our past effort to be good stewards of the environment 
shows how decarbonizing will provide benefits for air quality, 
the environment, and public health.
    Clean energy infrastructure investment is critical, and we 
must ensure the economic benefits are felt by all.
    We will invest upward of $4.6 billion over the next 9 years 
in clean technology jobs, and a healthier, more just future for 
generations to come. More importantly, we will make sure no 
community is left behind.
    SMUD's plan will create thousands of jobs in the growing 
clean sector. Some ask if we can afford the price tag to do all 
this. Our answer is: We can't afford not to.
    And we won't do it on the back of our customers. We will 
maintain affordable rates that today are about 35 percent lower 
than our neighboring utilities, leaving over $800 million in 
our local economy each year.
    And we must partner with our cities, counties, 
policymakers, communities, business leaders, the private 
sector, and our customers like never before to align resources 
to maximum impact for all.
    Now, SMUD, we have a long history of supporting 
underresourced communities. We have low-income customers 
decarbonized through energy efficiency and rooftop solar, and 
we will continue to install EV infrastructure and help 
customers borrow zero-emission vehicles in e-mobility hubs in 
underresourced communities.
    Through our Sustainable Communities programs, we identify 
neighborhoods most likely to be underresourced due to the lack 
of community development, income, housing, employment 
opportunities, and transportation, and we invest in them.
    Now, through partnerships, we train folks from those 
communities to install electrical, solar, and EV-charging 
equipment, providing career training and job placements for 
over 200 participants and counting.
    Younger generations are eager to help. That is why our 
partnerships with universities and junior colleges to support 
STEM education are so important, and our STEM scholarships come 
with paid internships at SMUD.
    SMUD spearheaded the development of the California Mobility 
Center, a public-private consortium to accelerate clean, 
scalable e-mobility technologies and solutions that are poised 
to generate $2.5 billion in economic activities and over 8,500 
new jobs over the next 5 years.
    I couldn't be more proud of all that SMUD has accomplished 
over the years, and I am confident that we can and will deliver 
our zero-carbon goal, and we are excited to make Sacramento an 
example to follow and a region where climate conscious business 
wants to be.
    Getting to zero by 2030 is not political. It is simply the 
right thing to do for our economy, our children, our 
grandchildren, and our planet.
    And thank you. I look forward to any questions.
    [The statement of Mr. Lau follows:]

                     Written Testimony of Paul Lau

               CEO, Sacramento Municipal Utility District

          at the House Select Committee on the Climate Crisis

                               Hearing on

                 ``Making the Case for Climate Action: 
           Creating New Jobs and Catalyzing Economic Growth''

                             April 20, 2021

    Chair Castor, Ranking Member Graves, and Members of the Committee, 
thank you for holding this important hearing on the economic 
development opportunities of climate action and for the opportunity to 
testify. SMUD supports the important work of this Committee in 
identifying and advancing key recommendations from its 2020 
Congressional Action Plan for a Clean Energy Economy, and in continuing 
to work towards meaningful policy changes that will unleash the 
benefits of climate action.
    My name is Paul Lau and I am the CEO of the Sacramento Municipal 
Utility District, or SMUD. SMUD is the nation's sixth-largest 
community-owned utility, operating on a not-for-profit basis to supply 
electricity to California's capital region since 1946. Today, SMUD 
serves a population of 1.5 million throughout a service territory of 
900 square miles situated in the Sacramento Valley of Northern 
California.
    We appreciate the opportunity to share our experience creating jobs 
and economic growth through climate action. SMUD welcomes the chance to 
serve as a resource for members of the Select Committee who may wish to 
learn more about our work keeping the lights on 24 hours-a-day, 365 
days-a-year for residents and businesses in Sacramento, California 
while laser-focused on keeping our rates affordable and our operations 
environmentally sustainable with every decision we make.
    SMUD powers the region's industries and homes using a generation 
mix that today is roughly 50% natural gas, 20% hydropower, and 30% 
other renewable energy (solar, wind, distributed energy). We are 
governed by a seven-member Board comprised of, and elected by, voters 
within Sacramento County. Our business model and local governance mean 
we are extraordinarily responsive to the wishes of our customers and 
local community. That's one reason why our customers consistently rank 
SMUD #1 in J.D. Power's customer satisfaction surveys. As a utility, 
reliable service, low rates, and environmental stewardship have long 
defined the three-pronged approach SMUD applies in serving our 
customers.
    The devastating effects of climate change continue to impact our 
region. Northern California wildfires that made national news in recent 
years burned in counties surrounding Sacramento. SMUD implements robust 
vegetation management, inspection and maintenance, facility hardening 
and situational awareness programs that help minimize the risk that a 
wildfire could spread through our service territory or damage our 
equipment, facilities and other assets. Such proactive measures have 
helped our customers and our region avoid the sorts of catastrophic 
fires that are becoming more prevalent as our region logged some the 
hottest summers on record over the past few years.
    Still, the American Lung Association's ``2020 State of the Air'' 
reported Sacramento ranked in the top 5 worst U.S. cities for ozone 
pollution. And four of the top five are in California. Children in our 
region are 30% more likely to suffer from childhood asthma. Like 
wildfires, we view this to be a statewide emergency.
    That's why we have moved with urgency to reduce our carbon 
footprint. SMUD has consistently set and achieved goals that exceed 
California's environmental requirements, which are already among the 
most stringent in the nation. SMUD was the first large utility in the 
state to reach a 20% renewable portfolio standard in 2010, and our 
utility adopted a 33% renewable portfolio standard even before this 
became a mandate in California.
    In 2018, our locally-elected Board adopted an Integrated Resource 
Plan to put SMUD on the path to net-zero emissions by 2040. But even as 
we geared up for that transition, our Board made the determination that 
it was not enough to meet the gravity of the climate crisis. So, last 
year they adopted a Climate Emergency Resolution to accelerate that 
goal to 2030. We know it won't be an easy road, but the stakes are too 
high to not do everything we can to reach zero as quickly as possible. 
It will take a coordinated approach to clean energy policy development, 
investment, and engaging customers and other stakeholders to take part.
    Today, I am proud to announce that our Board is poised to approve 
an ambitious plan to surpass its own net zero goal and completely 
eliminate carbon emissions from SMUD's power supply by 2030. This would 
make SMUD the first large utility in the U.S. to reach absolute zero 
carbon emissions, leading the way in context of the Biden 
Administration's goal of achieving a clean power sector by 2035. We 
just concluded the public comment period on SMUD's technical plan to 
accomplish this, which involves deploying existing clean technology, 
innovation, retiring and retooling our natural gas plants, and closely 
managing financial impacts.
    Getting to zero by 2030 will require SMUD to invest upwards of $4.6 
billion over the next 9 years. To put this context, SMUD's average 
annual revenue in the 3 years ending 2019 was roughly $1.5 billion. Our 
zero carbon investments will impact all of SMUD's operations and engage 
our customers as part of the solution. We will increase our renewables 
and batteries by 3.5 times our current capacity, retire 25% of our 
fossil fueled generators and run the rest on clean fuels, and we will 
more than double our investments in energy efficiency and 
electrification. We'll continue to support our customers' investments 
in rooftop solar and batteries as well as focusing on new technologies 
like vehicle to grid or virtual power plants, because our customers are 
an important part of the solution to reach zero carbon emissions.
    Importantly for me, as an engineer and a SMUD customer, as it is to 
all our customers, our 2030 Zero Carbon Plan seeks to eliminate carbon 
emissions from our power generation activities without compromising 
SMUD's world-class reliability or our commitment to affordability. To 
be precise on affordability, that means getting to zero by 2030 while 
maintaining rates among the lowest in California, on average 35% lower 
than our neighboring utility, which effectively keeps over $800 million 
in our local economy. So, we see this as an investment not only in 
reliable and resilient clean technology and infrastructure, but also in 
jobs and a healthier, safer and more just future for generations to 
come.
    As the state capital of California, Sacramento's largest employment 
sector has historically been federal, state and local government. 
However, our region's economy today is more broadly based. Government 
and transportation are the largest sectors of employment in the area 
followed by information technology and financial services, education 
and health services, leisure and hospitality and construction. The 
Sacramento region also recently updated its Comprehensive Economic 
Development Strategy with the U.S. Economic Development Administration, 
which identified the greatest growth potential in three industry 
sectors: food and agriculture, life sciences, and future mobility.
    SMUD's customer base is among the most socio-economically diverse 
in the country. The population we serve is approximately 62% Caucasian, 
23% Hispanic/Latinx, 17% Asian, 11% African American, 6% multi-racial 
and 1% Native American. Currently, the per capita income in Sacramento 
is roughly $32,000, median income is $67,000, with approximately 12.5% 
of our population living below the poverty line.
    As a community partner for nearly 75 years, SMUD is paying 
particular attention to ensure the benefits of our zero-carbon future 
are felt across all our communities. We do not want to just ``bring 
others along.'' That is why we have already held nearly a dozen 
community listening sessions on our 2030 Zero Carbon Plan and are 
continuing to seek feedback from local stakeholders. SMUD will continue 
to engage with our diverse communities as we implement our plan so that 
they are all part of the solution. As we aggressively decarbonize our 
power supply, we are striving to empower our communities to work with 
SMUD to develop place-based strategies, to make Sacramento communities 
more livable, resilient, and prepared to take advantage of a low-carbon 
future. We understand from experience that this can only be achieved by 
recognizing Sacramento is one of the most diverse cities in the nation 
and that we need to develop strategies respecting and building upon our 
local, unique qualities.
    SMUD's Sustainable Communities program, launched in 2018, builds on 
the decades-long work we have done to support under-resourced 
communities. We have identified areas in our region that are in 
particular need of assistance through a Resource Priorities Map, 
developed from analysis of current data indicating neighborhoods most 
likely to be under-resourced or in distress due to lack of community 
development, income, housing, employment opportunities, and 
transportation. SMUD partners with policy makers, transit leaders, 
technology companies, health care providers and other community-based 
organizations to maximize our impact and collaboration with community 
members to help all our communities--from rural to suburban to urban--
to be part of a zero-carbon future.
    To this end, SMUD has invested more than $5 million with 130 local 
organizations to execute projects aligned with the four pillars of our 
Sustainable Communities program: social wellbeing, healthy environment, 
prosperous economy and economic wellbeing. These partnerships have 
allowed SMUD to establish relationships locally and create a pipeline 
to ensure that all communities are included in our zero-carbon future. 
One such partnership is with Habitat for Humanity--Greater Sacramento, 
through which we have brought solar and new energy solutions to 
hundreds of new and existing homes for low-income families, and which 
will continue over the next few years. By adding electric vehicle (EV) 
charging at many Habitat homes through our partnership, SMUD is 
fostering the transition from fossil-fueled based to electric 
transportation in our lower income neighborhoods.
    SMUD is focusing our community outreach to improve equity in 
recruitment and remove barriers many communities face in pursuing zero-
carbon careers. SMUD is helping local partners implement a workforce 
development program known as Energy Careers Pathways, which trains 
participants in basic installation of electrical, solar, and EV 
charging equipment. By the end of 2021, the program will have 125 
graduates with a large number of participants hired to perform green 
energy jobs. SMUD also provides staff to assist the California 
Conservation Corps in running its energy lab which employs and trains 
young adults in electrical certifications and EV fast-charging 
infrastructure. Similarly, SMUD's energy ``Barons'' program provides 
training to individuals in utility trades to develop their community 
energy management skills for next-generation facilities management. 
These programs have translated into career training and zero carbon 
related job placement for over 200 participants, which SMUD sees as 
essential to ensure we have a workforce skilled to perform work needed 
to achieve Zero Carbon by 2030.
    SMUD's education outreach and workforce pipeline efforts aim to 
engage students from kindergarten through college in energy-related 
topics and STEM disciplines. Through partnerships with universities and 
junior colleges, we support a range of STEM education programs and 
activities including a leadership program for students at California 
State University, Sacramento. We offer paid internships for high school 
and college students, and our STEM-focused college scholarships come 
with paid internships at SMUD.
    Through the California Mobility Center, a public-private consortium 
led by SMUD, we are seeking to establish Sacramento as a center of 
electric mobility innovation. The California Mobility Center, which 
began operations this year, fosters clean, e-mobility technologies and 
solutions that can scale and become engines of economic growth. E-
mobility includes on- and off-highway vehicles and refueling and 
charging infrastructure supporting autonomous, electric, connected, and 
shared/smart mobility.
    Recently, the Center was awarded approximately $1.4 million in 
Coronavirus Aid, Relief and Economic Security (CARES) Act Grant funds 
from the City of Sacramento and a $600,000 grant from the California 
Workforce Development Board to provide workforce training to residents 
seeking advanced manufacturing careers. The funds have been shared with 
La Familia, the Greater Sacramento Urban League, Asian Resources, and 
the Sacramento Valley Manufacturing Association and other community 
training partners to develop workforce training programs supporting 
jobs in advanced manufacturing and mobility industries. Since the 
program's startup last year, over 350 participants received job-
readiness or technical training in manufacturing trades, more than 50 
secured internships with local companies, and over 30 participants have 
been placed in jobs. Many of the students trained in the Energy Career 
Pathways program and the California Mobility Center are being placed in 
union careers. Representatives of trade unions are brought in as part 
of these trainings to evaluate student projects and to perform onsite 
interviews.
    Workforce training is critical to begin now because demand for 
skilled employees in the e-mobility sector is only going to rise. A 
recent economic assessment estimates that from 2022-2027 the California 
Mobility Center and the companies it draws to the Sacramento region 
could generate $2.5 billion in economic activity. The California 
Mobility Center's operations during that five-year span could directly 
and indirectly support approximately 8,500 new jobs and generate over 
$900 million in total annual labor income.
    Among these new jobs, the assessment projects that the Mobility 
Center and its service provider partners would directly employ 
approximately 130 individuals at an average wage of $75,000. Expanding 
client companies are expected to add about 1,900 new jobs over the 
five-year period. With continued support of partners, an estimated 
3,150 trainees and interns will gain job skills development through 
Mobility Center programs. Through the multiplier effect, an additional 
3,400 indirect and induced jobs and $455.5 million in labor income 
could be supported at other local businesses in Greater Sacramento. The 
actual level of job and economic impact will depend on the number of 
companies that the Mobility Center is able to assist and the extent to 
which the new jobs created are in the Sacramento Region, but these 
numbers represent the expected scenario. The additional jobs and labor 
income at other local businesses stem from indirect and induced impacts 
of supplier demand created by the Mobility Center and its clients and 
consumer demand created by their employees.
    Beyond creation of new jobs, the partnerships SMUD is developing 
through the California Mobility Center is helping us realize the direct 
benefits of emissions reduction and indirect benefits of lowering fleet 
operating costs (contributing to lower rates for our customers). At 
SMUD, we have electrified our light duty vehicle fleet 100% and 
implemented advanced technologies to reduce idle time and eliminate 
emissions from our heavier duty fleet. Currently, 13% of our fleet of 
nearly 1,000 vehicle and construction equipment includes an electric 
drive or hybrid feature, and we are aiming to accelerate this progress 
significantly through 2030. This year, we have partnered with a start-
up, Zeus Electric Chassis, LLC--which established an operational 
presence in Sacramento based on its collaboration with the Mobility 
Center--to acquire five all-electric class 5 work trucks that will 
replace diesel engines in our fleet. Our investment in all-electric 
class 5 vehicles is SMUD's first in this medium duty class of vehicles 
and the only direct purchase option available from the market today. We 
will continue to track the market and advance fleet electrification in 
medium and heavy-duty vehicles classes in the future. SMUD expects to 
see and acquire all-electric bucket trucks in the next few years and 
there may be options for alternative fuel cell technology before 2030 
as the market develops and heavy duty lower- or zero-emissions 
equipment options mature.
    Looking prospectively, SMUD will be identifying new skills needed 
and partner with community organizations to develop upskill or entry-
level training programs to support new zero carbon technologies. We 
expect to develop customized strategies to attract and retain residents 
from under-resourced communities to these stable, economically mobile 
careers.
    We believe our carbon reduction actions will help counteract the 
effects of climate change, but it is much more than that, with even 
wider-reaching direct impacts on the health and wellbeing of the 
Sacramento region's 1.5 million residents today and for generations to 
come.
    SMUD has a long track record of working collaboratively with a wide 
range of partners and industries to deliver environmental, economic and 
social benefits for the Sacramento Region. In the early 2010s, SMUD 
successfully installed smart meters across our entire service area as 
part of the SmartSacramento smart grid effort. The heavy upfront 
investment was offset by a $127.5 million Department of Energy grant, 
more than 60% of the total smart-grid grant allotment in California. 
SmartSacramento revolutionized the California capital region's power 
grid, enabling digital enhancements in home and businesses and on 
SMUD's grid to make our power supply more efficient, resilient, and 
secure. Importantly, this smart grid technology facilitated integration 
of increased renewable energy sources, electric vehicles, rooftop solar 
and other distributed energy resources, making it possible to even 
contemplate our zero-carbon goal.
    As we move forward in our pursuit of zero carbon emissions, our 
approach maximizes local investment in renewable energy, with a direct 
impact on and improving air quality and health outcomes. It drives 
inclusive economic development, creates jobs, and spawns innovation. By 
taking a leadership role in addressing climate change, we hope to make 
Sacramento an example to follow and a region where climate-conscious 
businesses seek to establish roots. For SMUD, and me personally, what 
we are doing to get to zero by 2030 is not political; it is simply the 
right thing to do.
    Again, thank you for your consideration of this important topic and 
please do not hesitate to call on SMUD as a resource as this Select 
Committee continues its work exploring and developing climate policy 
solutions. I look forward to addressing any questions you may have.

    Ms. Castor. Thank you very much.
    Ms. Colon de Mejias, you are recognized for 5 minutes.

              STATEMENT OF LETICIA COLON DE MEJIAS

    Ms. Colon de Mejias. Thank you, Honorable Chair Castor and 
Ranking Member Graves and members of the Select Committee on 
the Climate Crisis, for allowing me this opportunity to express 
the benefits of climate action through sensible and expanded 
investments in energy efficiency in homes and buildings across 
America.
    I am Leticia Colon de Mejias and the owner of Energy 
Efficiency Solutions, which I founded in 2010. And, through my 
companies, we've provided over 14,000 home energy retrofits and 
upgrades in over 10 million square feet of multifamily 
properties. Additionally, we provide education and community 
engagement on the topics of sustainability and energy and 
climate action.
    I am also the Policy Co-Chair of the Building Performance 
Association, and I am honored to identify policies and 
opportunities to advance the energy efficiency industry as we 
create work opportunities for Americans across the Nation.
    Efficiency provides a benefit to our economy, human health, 
grid stability, and environmental justice goals in every state 
in the nation, while simultaneously making our country's 
building stock more efficient, resilient, safe, and affordable 
by reducing energy bills for millions of Americans through 
proven home retrofits and demand reduction technologies. 
Efficiency does all of this while putting Americans to work in 
stable career paths, resulting in national economic growth.
    While America is a diverse and innovative, amazing melting 
pot of people and solutions, I know that, together, we can 
create a responsible, equitable, inclusive, diverse, safe path 
forward, which will sustain and grow our nation while 
protecting human health and lifting our communities as we move 
forward. And, to reach this goal, we must rebuild our nation's 
energy grid by implementing the best possible solutions with 
the least possible harm to society.
    Therefore, it is critical that we invest in expanded 
efficiency for homes and buildings across America, because 
efficiency is the best path forward to draw down carbon 
emissions while creating high return on investment and 
generating numerous societal benefits.
    Efficiency reaches all communities in the nation, creating 
and sustaining local jobs while inclusively lifting 
communities, because through energy retrofits we address the 
energy crisis while prioritizing basic needs, including safe 
shelter, resilient livable shelter, and an affordable energy 
and a livable environment for all Americans.
    The affordable clean energy future should be built on the 
foundation of efficiency, because all roads lead home, and 
really no one can get ahead without a safe roof or a bed.
    Energy efficiency equals economic growth. Investments in 
efficiency result in direct economic stimulus by creating local 
jobs, and Congress could provide a robust appropriation for 
Federal efficiency programs, because, dollar for dollar, 
Federal investments in efficiency create more jobs.
    In my written testimony I provided a list of specific 
Department of Energy programs that deserve our support from 
American taxpayers. These programs continue to provide 
significant return on investments over and over.
    Unfortunately, there are many low-income households who are 
struggling with indoor contaminants, such as mold, asbestos, 
and other asthma triggers, which prevent deep energy efficiency 
retrofits.
    And, so, I suggest that potentially we look at LIHEAP 
programs, which could offer opportunities to improve human 
health through expanded building retrofits and remediation of 
indoor contaminants, which would allow us to draw down demand 
in those buildings, not just today, but forever.
    Ultimately, efficiency is the most cost-effective way to 
draw down carbon emissions and pollution while simultaneously 
producing all of these additional societal benefits. Americans 
need jobs. In efficiency, we need workers.
    Although often overlooked and not seen as very sexy, 
efficiency is actually the largest energy sector in the United 
States, employing over 2 million Americans, and our industry 
was the fastest-growing job sector prior to the pandemic, 
employing twice as many workers as the entire fossil fuel 
industry.
    And in my role at the Building Performance Association, I 
hear daily from companies, like my own, across America, that 
are looking to hire for open energy efficiency roles. These 
contractors want to grow, and that growth requires hiring 
qualified people for really good-paying jobs.
    This is why legislation, like the Blue Collar to Green 
Collar Jobs Act, introduced by Congressman Rush, is so 
important, because we need to hire people for jobs, and America 
has people who need jobs. Efficiency offers real jobs for real 
people.
    I myself have seven open roles which we are struggling to 
fill at this time due to lack of qualified trained workers. My 
starting pay rate is $15 an hour, and these careers offer 
rapid-growth opportunities up to $26 an hour plus commission 
for people with only a GED, high school diploma, and a few 
certificates and training.
    Residential efficiency is a critical infrastructure 
investment, which is why the Blue Collar to Green Collar Jobs 
Act would help bridge this gap. This grant would directly help 
small businesses like my own and support on-the-job training 
for new and existing employees.
    Most importantly, this legislation would give priority to 
businesses that recruit employees from local communities, 
minorities, women, veterans, and workers transitioning directly 
from the fossil fuel industry. It would also support critical 
on-the-job training and reskilling for these workers.
    We must ensure that funds are accessible to small 
businesses and include flexibility for on-the-job training at 
small businesses, because, unfortunately, at the Department of 
Labor, there is no code for efficiency. So, it has been very 
difficult for small businesses like mine to access Federal 
grants or state funds, particularly in the residential energy 
efficiency sector. And I am hoping this could be addressed 
through support to frontline and disadvantaged communities.
    And climate change, as we know, poses the greatest threat 
to communities who are least prepared to adapt, particularly 
low-income populations, working families, and historically 
underrepresented groups.
    These challenges and issues could all be addressed with 
building science and efficiency retrofits, and we can improve 
these problems through training and accessible, affordable 
training programs, which are critically part of a diverse, 
inclusive workforce program.
    With access to workforce development and short-term 
training programs, struggling Americans can become fully 
equipped to fill existing jobs and new careers at small 
businesses like my own.
    This also helps bolster energy affordability and energy 
security, because energy efficiency is one of the most 
effective tools to drive cost savings and increase property 
value, protecting financial security for Americans, while 
reducing energy burdens and making the grid more resilient and 
more efficient.
    Research shows that 25 percent of all U.S. households are, 
unfortunately, facing high energy burdens. For low-income 
households, this number rises to 67 percent. Furthermore, 
Black, Hispanic, and Native Americans and seniors, as well as 
families residing in low-income and multifamily housing, 
experience highly disproportionate energy burdens.
    We must be inclusive----
    Ms. Castor. Ms. Colon de Mejias, can you wrap up quickly? 
Thanks.
    Ms. Colon de Mejias [continuing]. A hundred percent. Yes, 
Chair Castor.
    And if we desire to engage this historically 
underrepresented population in career opportunities, we must 
invest in leveling the education playing field and including 
education on energy, science, and STEM skills, while looking 
towards protecting public health and creating a robust jobs 
program to get America back to work in our building sector.
    The time for action is now, and as a small business owner, 
I know we can create a responsible, inclusive path forward in 
the American economy.
    Thank you for allowing me the opportunity to speak here 
today.
    [The statement of Ms. Colon de Mejias follows:]

                  Testimony of Leticia Colon de Mejias

                CEO of Energy Efficiency Solutions and 
        Policy Co-Chair of the Building Performance Association

                               Before the

 U.S. House of Representatives, Select Committee on the Climate Crisis

                             Hearing Title:

                  Making the Case for Climate Action: 
            Creating New Jobs and Catalyzing Economic Growth

                             April 20, 2021

    Chair Castor, Ranking Member Graves, and members of the Select 
Committee, thank you for the opportunity to testify today on the 
opportunities and benefits of climate action through sensible and 
expanded investments in energy efficiency for homes and buildings.
    I am Leticia Colon de Mejias, CEO of Energy Efficiency Solutions, 
and Policy Co-Chair of the Building Performance Association. I founded 
the home performance company Energy Efficiency Solutions (EES) in 
Windsor, CT in 2010. My direct service companies, EES, Best Insulation 
of Connecticut, and Green Eco Warriors, which I also co-founded, have 
completed weatherization and comprehensive energy efficiency upgrades 
in over 14,000 Connecticut homes and 10 million square feet of 
multifamily properties. Additionally, we have provided educational 
outreach and community engagement on the topics of energy conservation, 
energy efficiency, climate action, and energy equity in CT, MA, RI, NY, 
and CA. We are currently engaged in energy educational efforts in 
Chicago.
    As Policy Co-Chair of the Building Performance Association, I am 
honored to help identify policies and opportunities to advance the 
residential energy efficiency industry, which in turn create career 
opportunities and improved policy outcomes locally and across the 
nation. Energy efficiency provides benefits to our economy, human 
health, grid stability, and environmental justice goals in every state 
in the nation, while simultaneously making our country's residential 
building stock more efficient, resilient, safe, healthy, comfortable, 
and affordable by reducing energy bills for millions of Americans 
through proven home retrofits and demand reduction technologies. Energy 
efficiency does this while putting Americans to work in family 
sustaining, stable career paths resulting in national economic growth.
    America is a diverse, innovative, and amazing melting pot of people 
with unlimited ideas and solutions. I strongly believe that together we 
can create a responsible, equitable, inclusive, diverse clean energy 
future that will sustain and grow our nation while protecting human 
health and lifting our communities. As we rebuild our nation's energy 
grid to implement the best possible solutions with the least possible 
harm to our society, it is critical that we invest in expanded energy 
efficiency for homes and buildings.
    Energy efficiency is the best path forward to draw down carbon 
emissions and create high return on investments, while also generating 
numerous societal benefits. The benefits of efficiency reach all 
communities across our nation, creating and sustaining local jobs, 
lifting communities by addressing barriers to safe and healthy housing, 
improving energy affordability, and mitigating waste and pollution. 
Through energy efficiency retrofits we can address the climate crisis 
while we prioritize basic needs including safe, affordable, energy 
efficient, resilient shelter for all Americans. An affordable, clean 
energy future should be built on a foundation of energy efficiency.

                            ECONOMIC GROWTH

    Investments in energy efficiency are a proven job creator and 
result in direct economic stimulus. There is a huge opportunity to 
simultaneously build a skilled clean energy workforce, support small 
businesses, and dramatically improve and decarbonize America's building 
stock. According to a recent report from E2 and E4TheFuture, if 
Congress directed $60.7 billion to the energy efficiency sector, over a 
5-year period it would add $254.7 billion to our nation's economy and 
create 737,200 full-time jobs across every region and state.\1\ 
Investing in a robust workforce of skilled energy efficiency workers 
will help power our economic recovery and our nation.\2\
    Investing in the nation's energy efficiency and building retrofit 
workforce will not only protect and create many jobs, but it will also 
help American families save money on utility bills and make their homes 
safer and more comfortable, while supporting a sustainable energy 
future for the country. These investments can increase purchasing power 
for working families and support economic growth and revitalization, 
especially for historically disenfranchised communities.\3\
    Congress should provide robust appropriations for federal energy 
efficiency programs. Dollar for dollar, federal investments in energy 
efficiency will create more jobs than investments in the utility sector 
or fossil-fuels.\4\ Federal investments in the U.S. Department of 
Energy (DOE) programs that support energy efficiency--like the Building 
Technologies Office, Weatherization Assistance Program, and State 
Energy Program--consistently result in job creation and economic 
growth.
    The following programs at DOE deserve the support of American 
taxpayers as these programs are proven to provide a significant return 
on their investment. When funded they will continue to provide energy 
cost relief to households, support American-based industry and American 
jobs, strengthen the aging electrical grid, and support national 
security goals.
    <bullet>  Building Technologies Office (BTO) develops critical 
technologies, tools, and solutions that help U.S. consumers and 
businesses achieve peak efficiency performance in new and existing 
homes and buildings across all sectors of our economy, including 
through its important Residential Building Integration (RBI) program.
    <bullet>  State Energy Program (SEP) provides funding and technical 
assistance to states to enhance energy security, advance state-led 
energy initiatives, and maximize the benefits of reducing energy waste. 
The Oak Ridge National Laboratory found that every dollar invested in 
SEP by the federal government yields over $10 leveraged for energy-
related economic development and realizes $7.22 in energy cost savings 
for U.S. citizens and businesses\5\--an excellent return on investment.
    <bullet>  Weatherization Assistance Program (WAP) helps low-income 
and rural families, seniors, and individuals with disabilities in every 
county in the nation make lasting energy efficiency improvements to 
their homes. WAP has a proven track record of creating jobs and 
contributing to the economy through the program's large supply chain of 
vendors, suppliers, and manufacturers. Each dollar that goes toward 
weatherization assistance returns $2.78 in non-energy benefits, in 
addition to the direct energy cost savings.\6\
    In addition, I want to note the importance of the Low-Income 
Heating Energy Assistance Program (LIHEAP) at the U.S. Department of 
Health and Human Services. LIHEAP is a vital program that helps 
Americans pay their utility bills. However, this critical program may 
also be used to increase home energy efficiency, thus reducing those 
bills permanently. To better support low-income communities, LIHEAP 
allowable measures and cost per unit should be expanded to remove 
barriers to weatherization which would allow long-term solutions to 
energy affordability, rather than band aid solutions. Unfortunately, 
many low-income households are struggling with indoor health 
contaminants such as mold, asbestos, and other asthma triggers. These 
programs could offer multiple opportunities to improve human health 
through expanded building retrofits.\7\
    Ultimately, energy efficiency is one of the most cost-effective 
ways to draw down carbon emissions while simultaneously producing all 
these added societal benefits.\8\ Addressing our aging infrastructure 
through holistic efficiency upgrades will also support a more reliable, 
resilient energy system, which is critical to our current and future 
economic growth and our national security.

                             CREATING JOBS

    Energy efficiency is the largest energy sector in the U.S., 
employing over 2 million Americans.\9\ Our industry was also the 
fastest growing jobs sector in energy prior to the pandemic, employing 
twice as many workers as the entire fossil fuel industry.\10\ Energy 
efficiency jobs are inherently local and cannot be outsourced, since 
upgrading our nation's building stock requires ``boots on the ground.'' 
These jobs are in every state in the country, across urban and rural 
areas, and most of the companies in our industry are small businesses 
like mine. Energy efficiency is an economic engine, creating and 
sustaining high-quality local jobs and career pathways for the American 
workforce.
    Like so many industries, ours was hard hit by the pandemic, 
resulting in a 10% cumulative workforce loss (338,500 clean energy jobs 
were lost between February of 2020 and February 2021).\11\ My company 
suffered greatly when the utility-run efficiency programs across 
Connecticut shut down on March 15th of 2020. Our work came to a 
screeching halt, leaving my staff and I with no way to work until late 
June. This was true for all efficiency contractors in my state. 
Ultimately, we were able to work with our local Department of Energy 
and Environmental Protection leadership to create a safe path forward 
to serve the ratepayers of Connecticut. Through a combination of 
virtual assessments, new safety protocols, and PPE upgrades, we were 
able to successfully get our entire team back to work. Many other 
contractors in my state were also able to get back to work, and even 
more of us are now looking to grow our teams, companies, and business 
offerings.
    The pandemic has continued to shine a light on the need to invest 
in energy efficiency expansion. As we sheltered in place it became all 
too clear that safe, resilient shelters are critically necessary in a 
crisis. I see this realization as an opportunity to spark new career 
options for displaced workers across our nation by expanding energy 
efficiency workforce programs nationally. Crises like the recent grid 
collapse in Texas demonstrate why expanded investments in improving 
thermal boundaries and increasing home efficiency could increase our 
national resilience to extreme weather or other crisis situations that 
require people to shelter safely at home. These investments in EE 
simultaneously work to lower peak demand, stabilize our energy grids, 
and allow that same saved energy generation to be reallocated to 
electrification efforts.
    To prepare more American workers for quality jobs in energy 
efficiency and bolster the economy, Congress should act to support 
workforce development and jobs training, by passing the Blue Collar to 
Green Collar Jobs Development Act (H.R. 156, 117th Congress, sponsored 
by Chairman Rush). The bill includes a vital Energy Workforce Grant 
Program that provides grants directly to small businesses to support 
on-the-job training for new and existing employees in the energy 
efficiency, renewable energy, grid modernization, and other energy 
industries. This would significantly help small and medium sized 
businesses invest in their employees, allowing workers to expand their 
skill set, earn higher wages, and provide improved services and 
technologies.
    The Blue Collar to Green Collar Jobs Development Act would support 
small businesses like mine that are the backbone of the efficiency 
industry. Small businesses across our nation need assistance to help 
train our new hires and provide ongoing education to existing 
employees. We have a real need to ramp up the implementation of 
workforce programs to provide support and ensure there are qualified 
workers to fill these vital American jobs.
    Importantly, the legislation would give priority to businesses that 
recruit employees from local communities, minorities, women, veterans, 
and workers transitioning from fossil fuel sector jobs--and it would 
also support critical on-the-job training and reskilling for these 
workers. The bill was passed by the U.S. House of Representatives in 
the 116th Congress as part of H.R. 2 and H.R. 4447.
    We must ensure that funds and activities to support energy 
efficiency workforce development are accessible to small businesses and 
include flexibility to use funds for on-the-job training. There is no 
Department of Labor code for energy efficiency, so it has been very 
difficult to access federal and state funds for energy efficiency 
apprenticeship programs, particularly in the residential sector. The 
Department of Energy has a much better understanding of this industry 
and its support for residential energy efficiency businesses is 
crucial. These small businesses are helping to lighten the load on our 
national energy grid: we draw down pollution, carbon emissions, and 
strengthen our nation's infrastructure, while lowering energy burdens, 
and increasing positive health outcomes. Efficiency is simply 
efficient.

            SUPPORTING FRONTLINE & DISADVANTAGED COMMUNITIES

    Climate change poses the greatest threat to those communities that 
are least prepared to adapt--particularly low-income populations, 
disabled, elderly, young working families, and historically 
underrepresented communities. These communities already experience 
disparities in health outcomes, inequities in living conditions, and 
often historically lack political power. Such disparities place low-
income communities and many underrepresented communities at greater 
risk while limiting capacity to adapt. Many of these same communities 
are struggling with energy affordability, barriers to safe and healthy 
housing, and financial insecurity. These challenges are all issues 
which building science and efficiency retrofits can improve. Equity-
driven energy efficiency can help uplift these frontline communities, 
through healthier homes, lower energy bills, improved safety and 
increased financial security, all while offering local career 
opportunities.\12\

                          EQUITABLE TRANSITION

    Taking climate action through robust investment in energy 
efficiency will create skilled jobs and stable career pathways with 
opportunities for growth in every state, not just for the moment, but 
for the long-term. With access to workforce development and robust 
short-term training programs, struggling Americans can become fully 
equipped to fill existing jobs and new careers in this emerging clean 
energy economy.
    At my company for example, all our company managers started out as 
entry-level laborers. Over time and with training they developed into 
leaders at EES. Our industry boasts employees whose highest educational 
degree may be a GED or high school diploma, yet these staff are earning 
upwards of $80,000 annually. Furthermore, three past EES employees now 
own companies like EES. This is a wonderful demonstration of real 
career paths for real Americans, ``Real Jobs for Real People.'' My past 
employees are now business owners who are also hiring their own staff 
from their own communities. Unfortunately, we are all struggling to 
hire people with the skill sets we need. Therefore, it is critical that 
Congress supports and budgets for energy efficiency training programs 
for small businesses, which will offer the opportunity for Americans to 
join us in this amazing work.
    We are presented with an unprecedented opportunity to lift 
underserved communities by supporting displaced workers, and career 
changers, through recruitment and training for careers in energy 
efficiency. Supporting employer-based on-the-job (OJT) training 
networks can help ensure that the residential home energy retrofit 
workforce continues to advance and expand to drive middle class job 
growth.\13\ With expanded training we can connect displaced and 
transitioning workers, underrepresented populations, and historically 
disadvantaged populations to these job opportunities. My company 
currently employs 20 staff members, 18 of whom are people of color who 
were unemployed or underemployed prior to working at EES. Beyond our 
EES staff we also provide work to a network of subcontractors who 
represent a diverse group of contractors such as: window installers, 
manufacturers, insulators, HVAC contractors, electricians, mold 
remediators, solar installers, trainers, marketing teams, community 
engagement workers, and sales staff.

Congress can take immediate action to lift energy burdens, strengthen 
our energy grid, improve health outcomes, and lift communities by 
supporting nationwide investments in residential energy efficiency for 
Americans of all income levels by passing the following legislation:

    The HOPE for HOMES Act (H.R. 7325/S. 4052, 116th Congress, pending 
bipartisan introduction in the House by Representatives Welch and 
McKinley) is groundbreaking legislation that will help to support 
contractors and homeowner rebates for energy efficiency home upgrades, 
including enhanced support for moderate-income and working families 
that do not qualify for weatherization assistance.
    <bullet>  HOPE for HOMES Training: The legislation allocates $500 
million to support small businesses in training their staff to 
undertake energy efficiency upgrades. This training is offered on-line 
to increase access (even during a pandemic) and allow contractors 
around the country to support continued improvement of their staff's 
skill sets. It will also increase the general understanding of the 
importance of building science and the business opportunities in 
improving home performance.
    <bullet>  HOPE for HOMES Partial Performance: The ``Partial 
Performance Rebate'' is a direct rebate provided to a homeowner for 30% 
of the cost of an energy efficiency improvement up to $800 for 
installing air-sealing and insulation and rising to $1500 to include 
high efficiency HVAC. This is doubled for moderate income families 
making less than 80% of median area income.
    <bullet>  HOPE for HOMES Full Performance: The full performance 
program will be run by State Energy Offices according to building 
science driven guidelines -- ensuring the energy savings paid for is 
achieved in a manner that most effectively leverages the state's energy 
goals and workforce. For the ``Full Performance Incentive'' the rebates 
will be 50% of the cost of the project with rebates ranging from 
approximately $2000-$4000 depending on the percent of energy savings 
achieved. This support is also doubled for moderate income families 
making less than 80% of median area income.
    The HOPE for HOMES Act was passed by the U.S. House of 
Representatives in the 116th Congress as part of H.R. 2 and H.R. 4447, 
and is currently in the CLEAN Futures Act (H.R. 1512) and the LIFT Act 
(H.R. 1848) in the 117th Congress.
    The 25C Tax Incentive is complementary to HOPE for HOMES and is 
another key piece of legislation providing incentives to homeowners at 
their point of decision-making. Simple and current, this incentive is 
the only energy efficiency tax incentive available for homeowners who 
have a tax liability at filing. It allows homeowners to take a discount 
off their tax bill when they purchase high efficiency products and 
systems during the tax year. Congress should support a long-term, 
forward-looking extension of the 25C credit by updating goals and 
consider transitioning the credit into a permanent performance-based 
instead of prescriptive incentive.

                    ENERGY SECURITY & AFFORDABILITY

    Energy efficiency is one of the most effective tools to drive cost 
savings, increase property value, and protect financial security for 
American families while reducing energy burdens. My company provides 
residential retrofits across Connecticut, which have proven to reduce 
energy demand by 33% and generally have a return on investment of 
between 1-3 years. Nationally, studies have shown that weatherization 
measures such as insulation and air sealing can reduce energy use by 
25-35%. Cutting down on energy waste lowers peak demand, resulting in 
improved affordability and energy security for all Americans, 
especially the most vulnerable.
    New research shows that 25% of all U.S. households face a high 
energy burden, and for low-income households that number rises to 
67%.\14\ Furthermore, Black, Hispanic, Native American, and seniors, as 
well as families residing in low-income multifamily housing, 
manufactured housing, and older buildings, experience disproportionally 
high energy burdens. In the face of unaffordable energy costs, nearly 
one in three U.S. households have reported facing a challenge in paying 
energy bills or sustaining adequate heating and cooling in their home, 
which can in turn impact health.\15\ Investment in energy efficiency 
generates lasting savings and is a critical solution for addressing 
energy affordability and protecting the health and safety of American 
families.
    Congress should improve access to energy efficiency among low-
income and disadvantaged communities by supporting and expanding the 
Weatherization Assistance Program (WAP), including through robust 
appropriations for FY2022, as noted above.
    Upfront costs are a huge barrier preventing many American 
households from investing in energy efficiency upgrades that would save 
money in the long run and improve their energy security.
    In addition to the Weatherization Assistance Program and incentives 
like HOPE for HOMES and the 25C tax credit which reduce the upfront 
costs, it is important that the energy efficiency upgrades are shown to 
have a return on investment. The SAVE Act (pending introduction in the 
Senate by Senator Bennet and to be included in Representative 
Perlmutter's GREEN Neighborhoods Act) would enable proper valuation of 
energy efficiency and energy generation features in a home's appraisal. 
This will help inform and engage Americans in the conversation on 
energy and increase demand for energy-efficient homes and retrofits of 
existing homes. It will also spur job creation in the construction, 
remodeling, and manufacturing sectors while simultaneously lowering 
Americans' energy bills, and decreasing carbon emissions from the 
housing sector.
    In Addition to the programs and legislation mentioned above, 
educating Americans in the importance of energy efficiency and its 
economic and societal benefits will greatly improve the adaptation and 
success as we transition to a clean energy economy. Unfortunately, in 
many cases youth and families located in underrepresented, at-risk 
populations are still missing access to critical Science, Technology, 
Engineering, Art, and Math (STEAM) applied learning skills. STEAM could 
build a foundation for our future workforce needs and help us diversify 
the workforce. This type of systemic change will require investments in 
energy and environmental conservation education to increase the general 
population's understanding of how energy is connected to all things. If 
we desire to engage historically underrepresented populations in these 
career opportunities, we must invest in leveling the educational 
playing field and support applied science and energy education in 
public schools across our nation. We must invest in enhancing access to 
the information which would help connect these underrepresented 
populations to our vital work to transition to a clean energy economy.
    At Green Eco Warriors, we collaborate with schools, families, 
communities, and leaders to achieve the following goals:
    <bullet>  Engage youth and families in meaningful learning 
activities such as environmental research and civic engagement and 
sustainability leadership, through the implementation of in-person and 
online education and motivation of youth and families.
    <bullet>  Engage underrepresented communities in preparing for 
growing energy workforce opportunities.
    <bullet>  Educate energy consumers on their role in energy 
consumption with special focus on at risk and minority populations, 
climate science, and energy equity.
    <bullet>  Create and provide equal access to engaging science-based 
educational tools aligned with national education standards.
    <bullet>  Reduce carbon emissions, pollution, energy waste, and 
energy disparities through the reduction of residential and commercial 
energy usage nationally.
    <bullet>  Educate communities on sustainable energy plans and water 
protection.
    <bullet>  Teach youth and families how to protect natural resources 
such as water, air, land, people, and the planet.
    Green Eco Warriors has connected with thousands of youth and 
families which, prior to working with us, had no information on climate 
change, energy infrastructure, or their connection to energy, and 
therefore did not see themselves as a critical part of the solution or 
planning process. If we desire meaningful engagement, we must ensure 
equal access to information that allows people to make informed 
decisions, and to be engaged meaningfully.

                        PROTECTING PUBLIC HEALTH

    Energy efficiency improvements in our buildings will create both 
immediate and long-term benefits for public health.\16\ Home 
performance contractors like myself address homes from the ridge line 
to the frost line, assessing the whole home and addressing the 
interconnections between the thermal envelope and the heating and 
cooling systems. Using building-science-based approaches, efficiency 
retrofits can dramatically improve the health and safety in homes by 
identifying and fixing underlying issues which cause mold, unhealthy 
indoor air, extreme temperatures, and health factors.
    The health and safety benefits of energy efficiency retrofits are 
well documented, including significant improvements in asthma symptoms 
and other respiratory illness, reduced thermal stress, and improved 
overall physical and mental health. Weatherization measures, like 
insulation and air sealing, also improve the durability of homes and 
minimize residents' exposure to wind, moisture and temperature 
extremes, which are critical to keeping people safe in unexpected 
storms or power outages. In dollar terms, these positive health 
outcomes are significant. In my state of Connecticut, research shows 
that a 15% reduction in energy use could reduce health impacts by $73 
per capita annually. On a national scale, a recent study from the 
American Council for an Energy-Efficient Economy (ACEEE) shows that by 
targeting four common health risks--asthma, falls, and exposure to 
extreme heat or cold--existing weatherization programs could save 
almost $3 billion dollars in avoided health harms over a ten-year 
period.\17\
    Energy efficiency supports public health outside of the home as 
well. In the U.S., air pollution leads to almost 250,000 annual 
premature deaths per year.\18\ Building retrofits and efficiency 
measures save energy and lower peak demand, thereby helping reduce 
harmful pollution from coal- and gas-fired power plants.\19\ Oftentimes 
these dirty ``peaker'' plants are in or near underrepresented at-risk 
populations and low-income communities, threatening the health of those 
populations and making it an important equity concern. In my own state, 
over 10 years energy efficiency programs reduced emissions by 11.4 
million tons, the equivalent of taking 2.4 million cars off the 
road.\20\

                               CONCLUSION

    Comprehensive climate action that advances energy efficiency in 
buildings across the U.S. will strengthen our nation's economy and 
infrastructure and help generate a cascade of societal benefits 
including creating good-paying jobs for Americans, improving public 
health and well-being, and supporting our most vulnerable communities. 
The building sector is one of the largest contributors to our carbon 
emissions, and it is also a key part of the solution. It is time to 
address our aging, inefficient building stock and invest in these 
proven solutions that will provide a lasting return on investment for 
families, businesses, communities, and this country. The time for 
action is now. As a proud American and small business owner, I know 
that together we can create a responsible path forward to ensure an 
inclusive transition to a clean, resilient, stable energy economy, 
which will benefit all Americans regardless of economics or social 
standing.

                               REFERENCES

    \1\ https://e4thefuture.org/wp-content/uploads/2020/07/E2E4-Build-
Back-Better-Faster-Stimulus-Projection-Report-July2020.pdf
    \2\ https://www.youtube.com/watch?v=e8j-YJdbWZY&t=247s 
https://www.eesi.org/files/Leticia_Colon_de_Mejias_093020.pdf
    \3\ https://rooseveltinstitute.org/publications/economic-recovery-
begins-at-home-retrofitting-housing -jobs-health-savings-climate/
    \4\ http://aceee.org/files/pdf/fact-sheet/ee-economic-
opportunity.pdf
    \5\ https://www.eesi.org/files/fy07_021406_oakridge.pdf
    \6\ https://www.energy.gov/eere/wap/about-weatherization-
assistance-program
    \7\ https://efficiencyforall.org/wordpress/2021/03/01/addressing-
health-and-affordability-challenges -for-low-income-families/
    \8\ https://efficiencyforall.org/wordpress/wp-content/uploads/2019/
02/EE-Health_2-18-2019_Flyer.pdf
    \9\ https://e4thefuture.org/energy-efficiency-jobs-are-best-bet-
for-recovery-in-2021-report-reveals/
    \10\ The 2020 Energy Efficiency Jobs in America Report, published 
by E4TheFuture: https://e4thefuture.org/wp-content/uploads/2020/11/
EE_Jobs_America_2020.pdf
    \11\ https://e4thefuture.org/wp-content/uploads/2021/02/Clean-
Energy-Jobs-December-COVID-19-Memo-Final-Revised.pdf
    \12\ https://publichealth.yale.edu/climate/
YCCCH_CCHC2020Report_395366_5_v1.pdf
    \13\ https://rooseveltinstitute.org/publications/economic-recovery-
begins-at-home-retrofitting-housing-jobs-health-savings-climate/
    \14\ https://www.aceee.org/research-report/u2006
    \15\ https://www.eia.gov/todayinenergy/detail.php?id=37072; 
https://publichealth.yale.edu/climate/policy_practice/
YCCCH%20Extreme%20heat%20issue%20brief_407652_284_48542_v2.pdf
    \16\ https://rooseveltinstitute.org/publications/economic-recovery-
begins-at-home-retrofitting-housing-jobs-health-savings-climate/
    \17\ https://www.aceee.org/research-report/h2001
    \18\ https://oversight.house.gov/news/press-releases/oversight-
committee-and-top-experts-examine-new-data-on-the-health-and-economic
    \19\ https://rooseveltinstitute.org/publications/economic-recovery-
begins-at-home-retrofitting-housing-jobs-health-savings-climate/
    \20\ https://www.energizect.com/about/annual-legislative-report-
2019

    Ms. Castor. Thank you very much.
    Ms. Reams, you are recognized for 5 minutes to present your 
testimony.

                   STATEMENT OF HEATHER REAMS

    Ms. Reams. Thank you, Chairwoman Castor, Ranking Member 
Graves, and members of the committee, for the opportunity to 
testify today about how climate policy can create jobs and grow 
the economy.
    My name is Heather Reams, and I am the Executive Director 
of Citizens for Responsible Energy Solutions, known as CRES. We 
are a nonprofit organization that engages policymakers and the 
public about responsible, conservative solutions to address 
climate change while increasing America's competitive edge.
    This hearing is of significant importance to CRES, because 
we believe that climate action does not come at the expense of 
American job growth or economic expansion. And it is wonderful 
that we all agree on the science and we need to do something 
about the climate.
    Where there is disagreement, however, is with the math. 
Adding unnecessary cost burdens, multiplying an already too-
big-to-fail bureaucracy, subtracting perfectly viable energy 
options and American jobs, and dividing up our children's 
future, will not equal net zero. It is time for Congress to act 
on reason and common sense rather than the demands and 
rigidness of the activist fringe.
    A sure bet is in the investment in American innovators. We 
must empower and protect them. Give them access to resources, 
such as our world-class Federal laboratories and abundant 
private sector capital. Give them strong intellectual property 
protections, especially from foreign threats.
    Make government a partner in the work, not a barrier, so 
that the private sector can build facilities and a specialized 
workforce here in the United States to scale up manufacturing 
and gain access to global markets.
    If we follow this model, the United States will enjoy 
continued economic strength, robust job creation, and lead the 
world in providing energy solutions that will result in 
reducing not just emissions here at home, but global emissions.
    I have three key recommendations I would like to share 
today.
    First, reduce energy prices, not energy choices. Low energy 
costs lead to more manufacturing and jobs domestically.
    Today's energy choices keep energy costs affordable so that 
we can continue to work towards cleaner technologies that can 
be commercialized and exported globally.
    And all the above does not necessarily mean a future 
dominated by fossil fuels. Instead, it is a realistic outlook 
about the transition to reliable, low-emissions energy sources 
at an affordable price.
    Second, shrink our emissions, but not our economy.
    As this committee knows all too well, climate change is a 
global issue. Today, 85 percent of all greenhouse gas emissions 
occur outside of the U.S. borders, a share that will increase 
to about 90 percent by the end of the next decade as global 
energy demand is rising, primarily due to increased living 
standards and energy use in the developing world.
    As a group, China and the developing economies are 
estimated to account for over 100 percent of the anticipated 
increase in global emissions through 2050.
    This means U.S. climate and energy policy must foster 
innovations and commercialization pathways that will work for 
America, as well as for India, Nigeria, and Indonesia.
    Simply focusing on achieving net zero by 2050 here in the 
United States is unlikely to produce what it takes for 
developing nations to do the same.
    Third, export American innovation, not American jobs. 
Investment in innovation is critical to maintaining the 
downward trend in emissions in the power sector, as well as to 
lower emissions in hard-to-decarbonize sectors, such as 
transportation and industry, which are now the second and third 
sources of emissions in the United States, respectively.
    We need to be clearheaded about what poor countries can and 
will do. Here in the United States, there is a lot of talk 
about transitioning away from fossil fuels, and that 
conversation does not exist in the developing world. The 
difference between having power widely available and not, well, 
the choice is easy.
    Energy access raises the quality of life in developing 
nations. Will their energy technology be clean? Sure, it is a 
concern, but it is not their priority, and who can blame them?
    Let's follow the science and do the math. The United States 
will be far more effective in reducing emissions--and 
equitable--by driving down the cost of low-carbon technologies 
to make them more competitive and viable for developing 
countries to adopt.
    Here is a logical role for the United States and its 
scalable, affordable clean tech solutions, but we must invest 
today so that we have this technology for tomorrow.
    And I will underscore that these are advanced jobs, based 
here in the United States and focused on research and 
development, deployment, and commercialization of clean energy 
technologies.
    I thank you for the opportunity to share my organization's 
views with you today. I sincerely believe our best hope for 
curbing the impact of global emissions is to ensure that 
America's climate policy supports our workers and our economy, 
as well as our environment.
    I will be happy to answer your questions.
    [The statement of Ms. Reams follows:]

     Testimony of Heather Reams, Executive Director, Citizens for 
                  Responsible Energy Solutions (CRES)

   To the U.S. House of Representatives, Select Committee on Climate 
                             Crisis Hearing

                 ``Making the Case for Climate Action: 
           Creating New Jobs and Catalyzing Economic Growth''

                        April 20, 2021 Noon EDT

    Chairwoman Castor, Ranking Member Graves, and Members of the 
Committee, thank you for the opportunity to testify today about how 
climate policy can create jobs and grow the economy.
    My name is Heather Reams, and I am the Executive Director of 
Citizens for Responsible Energy Solutions, also known as CRES. We are a 
non-profit organization that engages policymakers and the public about 
responsible, conservative solutions to address climate change while 
increasing America's competitive edge. This hearing is of significant 
importance to CRES because we believe that climate action does not come 
at the expense of American job growth or economic expansion.
    We all agree that the science says climate change needs to be 
addressed. Where there is disagreement, though, is the math. Adding 
unnecessary cost burdens, multiplying an already ``too big to fail'' 
bureaucracy, subtracting perfectly viable energy options and American 
jobs, and dividing up our children's future will not equal net zero. It 
is time for Congress to act on reason and common sense rather than the 
rigidness of the activist fringe.
    A sure bet is an investment in American innovators, probably the 
most powerful source for good the world has ever known. We must empower 
and protect them. Give them access to resources like our world-class 
federal laboratories and abundant private sector capital. Give them 
strong intellectual property protection, especially from overseas 
threats. Finally, make government a partner in the work, not a barrier, 
so that they can build facilities and a specialized workforce here in 
the U.S. to scale up manufacturing and gain access to global markets. 
If we follow this model, the United States will enjoy continued 
economic strength, robust job creation, and lead the world in providing 
energy solutions that will result in reducing not just emissions at 
home, but global emissions.
    My recommendations are simple: 1. Reduce energy prices, not energy 
choices. 2. Export American innovation, not American jobs; and 3. 
Shrink our emissions, not our economy.
    1. Reduce energy prices--not energy choices.
    Low energy costs lead to more manufacturing and jobs domestically. 
Today's energy choices keep energy costs affordable so that we can 
continue to work toward cleaner technologies. All the above does not 
necessarily mean a future dominated by fossil fuels. Instead, it is a 
realistic outlook about the transition to reliable low-emissions energy 
sources at an affordable price.
    2. Export American innovation--not American jobs.
    Investment in innovation is key to maintaining the downward trend 
in emissions in the power sector, as well as to lower emissions in 
hard-to-decarbonize sectors such as transportation and industry, which 
are now the second and third sources of emissions in the United States. 
Cutting red tape and safeguarding American intellectual property from 
global competitors will foster an environment in which our nation's 
innovators have the resources they need to help us get to a low-carbon 
economy, while providing jobs for hard-working Americans. Scaling new 
clean energy technologies will also reduce their cost and make them 
more accessible for developing economies whose carbon footprint is 
growing.
    3. Shrink our emissions--not our economy.
    It is clear at this point that clean energy is not at odds with 
economic growth. Providing incentives that will allow the most 
innovative technologies to flourish and be produced at scale will help 
position the American clean energy industry globally. To ensure 
America's global leadership in technological innovation for clean 
energy, however, we must be very cognizant of the global supply chains 
related to these technologies. We must take great care to reduce our 
reliance on foreign competitors for the critical minerals and 
components that are used in elements such as wind turbines and EV 
batteries.
    At a basic level, investing in innovation is an investment in 
America's future. Federal support for R&D, and an unfettered private 
sector to deploy and commercialize clean energy technologies will 
reduce costs and increase options to address climate change. 
Competition in a free and fair market will help drive the domestic 
economy as America's next generation of clean energy solutions are 
deployed around the world. We've seen this work in other industries and 
technologies, and if done correctly will work for climate mitigation, 
too.
    Since this week the President is hosting the Leaders Summit on 
Climate, I would like to address the 2050 net zero target that the 
Biden administration has embraced and how it relates to innovation and 
job growth. While more countries appear to be adopting this mid-century 
goal, here in the U.S. we have not answered the all-important 
questions: is it realistic? And what is needed to achieve it?
    It's undoubtedly a huge challenge. We currently lack the technology 
required to tackle it in a way that is commercially viable. These are 
not one or two technologies to solve a problem in one or two sectors 
here in America--we need a suite of breakthroughs covering multiple 
sources and sectors that can be scaled to deploy around the world. 
These technologies need to be affordable and reliable, and more 
importantly, globally cost competitive with today's conventional 
energy.
    Global deployment will be needed
    We have to think big--in a different way. We no longer live in the 
U.S.-centric 1990s, when we produced a quarter of global emissions and 
the rest of the OECD produced another 25 percent. Back then we could 
pursue unilateral policy--perhaps in coordination with a few other 
economies--and make a major dent in global emissions. That is no longer 
the case.
    Today, 85 percent of all greenhouse gas (GHG) emissions occur 
outside U.S. borders--a share that will increase to about 90 percent by 
the end of the next decade. Global emissions are increasing, as global 
energy demand is rising, primarily due to increased living standards 
and energy use in the developing world. As a group, China and 
developing economies are estimated to account for over 100 percent of 
the anticipated increase in global emissions through 2050. This means 
that U.S. climate and energy policy must foster innovations and 
commercialization pathways that work for America as well as India, 
Nigeria, and Indonesia. Simply focusing on achieving net zero by 2050 
here in the United States is unlikely to produce what it takes for poor 
countries to do the same.
    We need to be clear-headed about what poor countries can and will 
do. Here in the United States, there's a lot of talk about 
transitioning away from fossil fuels--that conversation does not exist 
in the developing world. While there is strong support for renewables 
and low-carbon technologies in those countries, they all support 
traditional fossil fuel energy as well.
    The green premium that wealthy countries take on is unrealistic in 
poorer countries focused on poverty eradication and energy access. 
Instead of exporting high regulatory costs, we would be far more 
effective and equitable driving down the cost of low-carbon 
technologies to make them competitive and viable for developing 
economies.
    We cannot solve climate change by focusing on domestic policies 
that ignore basic facts like China's emissions, and what poor countries 
will and will not do. And if we do not change the current global 
emissions trajectory, we might as well focus on adaptation and 
resiliency.
    But let's assume that we're successful. That we are able to produce 
affordable and reliable low-carbon technologies that poor countries 
will buy without any mandates, subsidies or U.S. financial assistance. 
Will we benefit commercially? Will there be replacement jobs for 
workers from formerly carbon-intensive industries? Will a low-carbon 
economic transformation generate substantial national wealth that all 
will share in, as has been so often promised?
    If we rethink our policies related to regulation, trade, and 
intellectual property protection, maybe. If we continue doing what we 
have been doing, absolutely not.
    Never ending subsidies and mandates skew markets in a way that 
stifles the American innovation necessary to address global emissions 
and harms entrepreneurs. In comparing the effect of Chinese subsidies 
on the solar module market, the Information Technology and Innovation 
Foundation found that as American manufacturers struggled to compete 
against rivals heavily funded by the Chinese government, they invested 
less in the very innovation that created the market in the first place. 
When the United States fails to enforce its trade rules on China, it's 
no surprise that companies scale back their investment in innovation: 
why invest the time, energy and money in something that will be stolen 
without consequence?
    Solar is a cautionary tale for how wrong this can go. It was 
invented in the United States and then stolen by China, which through 
predatory trade practices nearly destroyed our homegrown manufacturing. 
In 2006 the United States produced 8 percent of global solar panels 
compared to China's 15 percent. In just over ten years, China's share 
had grown to over 70 percent while America's was negligible. But we 
continue to pay for it, in 2017 the U.S. imported 88 percent of its 
demand for solar cells and modules.
    We must not repeat this mistake again. Well-meaning but misguided 
policies that incentivize thousands of new factory jobs in China on the 
U.S. taxpayer's dime is not a clean energy jobs program for America.
    One very important principle that climate policy almost always gets 
wrong is: Policy should cut energy prices, not energy choices. 
Competitive markets are the most efficient path to the best solution at 
the lowest cost.
    Here in America, there is a strong push to reduce GHG emissions by 
blocking fossil fuel infrastructure, including pipelines and terminals 
that would ultimately result in exporting that energy overseas. In my 
opinion, this is misguided and harms our efforts to reduce global 
emissions. While it is important to encourage other countries to deploy 
low-carbon technologies and systems, we must recognize that countries, 
even those in the European Union, will continue to use fossil fuels for 
the foreseeable future. At least until the global community 
commercializes low-carbon technologies that can compete with 
conventional energy.
    It's important to understand that the GHG life-cycle emissions of 
fossil fuels vary by supplier--often significantly. According to the 
Department of Energy's National Energy Technology Laboratory, Russian-
produced natural gas shipped by pipeline to Europe has approximately 41 
percent higher life-cycle emissions (CO2 equivalent) than U.S. 
liquefied natural gas (LNG) shipped to the same destination. Russian-
produced natural gas shipped by pipeline to China has 47 percent higher 
life-cycle emissions than U.S. LNG exported to China. Heavy oil 
produced in Venezuela has 50 percent higher life-cycle emissions than 
light oil produced in Wyoming.
    When the world switches from foreign to U.S. fossil fuels, the 
emissions reductions are enormous. If the European Union produced 
electricity with U.S. natural gas instead of Russian, the associated 
global emissions would fall approximately 72 million metric tons 
annually. For comparison, the EU estimates that it needs to reduce its 
emissions by 78 million metric tons each year to reach its 2030 targets 
under the Paris Agreement. If China imported U.S. LNG instead of 
Russian gas via a recently completed pipeline, associated global 
emissions would be approximately 65 million metric tons lower. The 
emissions impact will increase significantly as China is projected to 
lead the world in the growth of natural gas consumption.
    A similar story of misplaced demonization exists with nuclear 
power. We know that nuclear generates some of the cleanest, most 
reliable power in the world. Producing zero greenhouse gas emissions, 
and with new, advanced safety designs coming online, nuclear should be 
a growing piece of our energy portfolio if we want to reach net zero 
carbon emissions. But instead of learning we've allowed ourselves to be 
frightened off by accidents like Chernobyl, which was caused by bad 
design and human incompetence, and Fukushima, which was caused by a 
natural disaster and resulted in one death linked to radiation 
exposure. Instead of opportunities to build better, safer facilities, 
we've shuttered our most efficient zero-carbon power facilities or 
worse, turned them into coal plants.
    Do better with critical minerals
    Critical minerals are materials essential to the economic and 
national security of the country, but whose supply may be at risk due 
to geological scarcity or geopolitical issues. A May 2020 report by the 
International Energy Agency (IEA)\1\ concluded that the transition to a 
low-carbon economy will require a reliable supply of critical and 
strategic minerals. Cobalt, lithium, and nickel, for example, are key 
for battery performance and charging capability. Copper is essential 
for anything involving electrification, given its exceptional 
conductivity. Many U.S. businesses are voluntarily committing to 
sourcing power from renewables like wind power or transitioning 
completely to electric vehicles (e.g., General Motors). Fulfilling this 
demand will strain the already limited availability of these minerals. 
According to the IEA report, an electric vehicle requires five times 
the amount of critical minerals than a fossil fuel vehicle does, and a 
wind turbine plant demands eight times as much as a gas-powered plant 
with a similar capacity.
---------------------------------------------------------------------------
    \1\ International Energy Agency, ``Clean energy progress after the 
Covid-19 crisis will need reliable supplies of critical minerals,'' 6 
May 2020, https://www.iea.org/articles/clean-energy-progress-after-the-
covid-19-crisis-will-need-reliable-supplies-of-critical-minerals.
---------------------------------------------------------------------------
    The Democratic Republic of Congo (DRC) produces around 70 percent 
of the world's cobalt, and China is responsible for refining the same 
percentage of cobalt globally. Between 2015 and 2018, the U.S. obtained 
around 80 percent of rare earth imports from China.\2\ China is the 
largest global consumer of cobalt, with 80 percent being used to 
manufacture rechargeable batteries,\3\ and has the largest lithium-ion 
battery market in the world. In 2019, the top three U.S. suppliers of 
lithium-ion batteries for EVs were South Korea, Japan and China.\4\
---------------------------------------------------------------------------
    \2\ United States Geological Survey, ``Rare Earths Data Sheet,'' 
Mineral Commodity Summaries 2020, https://pubs.usgs.gov/periodicals/
mcs2020/mcs2020-rare-earths.pdf.
    \3\ United States Geological Survey, ``Cobalt Data Sheet,'' Mineral 
Commodity Summaries 2020, https://pubs.usgs.gov/periodicals/mcs2020/
mcs2020-cobalt.pdf.
    \4\ Jeff Horowitz, David Coffin, and Brennan Taylor, Supply Chain 
for EV Batteries: 2020 Trade and Value-added Update, Office of 
Industries Working Paper ID-072, U.S. International Trade Commission 
(USITC), January 2021, https://www.usitc.gov/publications/332/
working_papers/supply_chain_for_ev_batteries_2020_trade_and_value-
added_010721-compliant.pdf.
---------------------------------------------------------------------------
    The COVID-19 pandemic has evidenced the risks of relying on foreign 
countries for a regular supply of goods and minerals that are key for 
the daily operations of many industries. These risks are accentuated 
when this dependence is concentrated in commercial and geopolitical 
adversaries such as China. Additionally, accusations of hypocrisy ring 
true when the world's greatest democracy relies so heavily on regimes 
known for child labor and human rights abuses.
    Transitioning to a clean energy economy should not come at the 
expense of a clean conscious. Building a secure supply chain for our 
low-carbon technologies with our allies, including the mining and 
processing of the necessary critical minerals to produce them should be 
a key priority for America.
    Thank you for the opportunity to share my organization's views with 
you today. Making sure that America's climate policy supports our 
workers and our economy as well as our environment is our best hope for 
curbing the impact of global emissions.

    Ms. Castor. Thank you very much.
    And I thank all of the witnesses for your insightful and 
informative testimony. And I recognize myself for 5 minutes for 
questions.
    Governor Bredesen, in your testimony you said climate 
action shouldn't be thought of as a cost, as a cost center, but 
as a revenue and profit center. I like that.
    So how do we help parts of the country where there may not 
be a state commitment to clean energy or a climate policy, but 
yet they are looking for economic development opportunities?
    And don't forget to unmute.
    Mr. Bredesen. I think that there are good ways of being 
able to further establish green energy, its production and the 
manufacture of those things, that make it possible in other 
parts of the country.
    There is a big manufacturing industry behind the 
development of solar power--the racking systems, the panels, 
the inverters, and so on.
    One can certainly imagine Federal policies which would 
incent those manufacturers to place factories--new factories, 
in those kinds of areas to support workers who may have been 
displaced, as, for example, in Kentucky, by these technologies.
    And then, second of all, of course, as I said in my 
remarks, I mean, solar itself is, by its nature, very 
distributed and, by its nature, tends to go into very low-cost 
areas, often places that have economic challenges already. And 
so focusing on it can be one of the ways, I think, in which you 
bring this there.
    What we have found at Clearloop is there are a lot of 
companies in the country, and this effort is being driven by 
the private sector so much, who would love to participate but 
don't really have the vehicles today to be able to do that.
    I think there are a number of very low-cost or no-cost 
things the Federal Government can do that just open up the 
doors in ways to use these vehicles and to bring this private 
capital into the creation of jobs in the parts of the country 
you are referencing.
    Ms. Castor. Thank you.
    And so, Mr. Lau, you have just announced today that the 
Sacramento Municipal Utility District will completely eliminate 
carbon emissions by 2030, 5 years ahead of President Biden's 
goal for the Nation, and you will do so while accelerating the 
electrification of transportation and buildings.
    Tell us more about this very significant announcement. 
Where do you see the job creation happening here? And what do 
you say to naysayers who say, well, this can't be done, or it 
is going to cost too much, or it is going to make the grid 
unreliable?
    Mr. Lau. Thank you, Chair Castor.
    So the first thing about this announcement by the board is 
really our board's proclamation kind of to the world to say 
clean energy is important to us because it is important to the 
environment, come join us and be a global leader to fight 
climate change, but do it in a way that really helps the 
economic vitality of the region. You are doing this by really 
kind of partnering and really leveraging innovation.
    So where we see the jobs are coming, because we are going 
to invest $4.5 billion in the next 9 years to really double our 
energy efficiencies and electrification efforts, and we are 
also going to invest heavily in local renewables, like local 
solar.
    So that is going to create, really, thousands of jobs, 
good-paying jobs, and we are working with the underserved 
communities to make sure, when we go out there, install, 
really, thousands of electrical chargers that we will need to 
support our electric vehicles. We are going to put batteries on 
homes so that we can leverage the sun when solar is producing 
during the day and dispatch those energies onto the grid when 
it is most needed and most expensive.
    So we really believe, by putting this goal out there, it is 
something that is very significant. And it is not only about 
the economy, but it is also about all the things that are 
important to the Sacramento region, I think, for most 
communities. It is about the air quality. It is about economic 
development. It is about transportation. It is about 
healthcare.
    So this plan is really our board and our region's hope to 
be leading by example, that you can work with your communities, 
with the regulators, with the private sector, to come together 
and really kind of align your resources for maximum impact so 
that it is not either/or. You can still have a very, very clean 
future, clean energy future, an inclusive zero-carbon economy, 
but do it in a way that is also great for the environment and 
really kind of great for our kids and grandkids.
    Thank you, Chair Castor.
    Ms. Castor. Thank you very much. Yes, you have built the 
coalitions to make it happen. It is very impressive.
    At this point, I will recognize Ranking Member Graves for 5 
minutes for questions.
    Mr. Graves. Thank you, Madam Chair.
    I want to thank all the witnesses for your testimony. It is 
very helpful.
    Mr. Lau, it was interesting listening to you talk about the 
bold goals that you have set, the nearly $5 billion investments 
that you are making. Yet, looking at research that has been 
done by the National Academies, it indicates that there has 
been--that 24--up to 24 percent of the pollutants that are 
measured in California, Western States, for example, are 
actually coming from Asian air transport, meaning from Asian 
countries across the Pacific.
    More recent analysis, after 25 years of studying emissions 
and smog in California, including scientists from NOAA, 
University of Colorado at Boulder, Princeton, and others, they 
found that despite a 50 percent reduction in smog-forming 
emissions in the United States, you have actually seen a year-
over-year increase in smog, and they attributed as much as 65 
percent of that to, again, transport coming from overseas.
    My point is that, how do we address this issue? You are 
worried about health. You are worried about health outcomes for 
our kids, which we all are. But if everything you are doing is 
more than being offset by what is happening from China and 
India and other countries, and you are spending $5 billion and 
not improving things, how do we fix this?
    Mr. Lau. That is a great question, Ranking Member Graves. 
But I think one thing that we have got to remember when we 
created this plan, it is more than just carbon. It is about 
local air quality.
    So what we are doing is that we are being very, very 
aggressive in terms of energy efficiency. We are going to do 
two or three times the energy efficiency that we are doing 
today. And we are also electrifying the buildings and 
transportation.
    So when you take a look at the carbon emissions from our 
plants, it is about 2 million metric tons per year. When you 
look at the emissions by the electric vehicles and the 
buildings, it is about 8 million metric tons, about four times 
that.
    So to address that issue is that we have to look at it 
locally. So by taking the action that we are doing, we are 
creating the jobs locally. We are inviting investment to come, 
to invest in Sacramento.
    Mr. Graves. Right. But let's keep in mind that our 
objectives here aren't just about creating jobs. It is about 
improving air quality.
    And, also, I want to clarify, I am not sure if I understood 
your comment correctly, but I am talking--the University of 
Colorado, NOAA, Princeton, that involved smog, which is, of 
course, ground-level ozone.
    Mr. Lau. Yes.
    Mr. Graves. And so, if we are spending all this money and 
we are not improving air quality, don't we need to ensure that 
there is a global component to this?
    Mr. Lau. Oh, we are. So right now, currently, SMUD has 
about 16,000 electric vehicles. And if our plan works out, we 
are going to go to about 228,000 electric vehicles. And so that 
is taking almost a million metric tons of carbon and air 
pollutants out of our local community.
    Mr. Graves. So, effectively, the strategy that you are 
talking about, though, effectively, it is taxing Americans, 
including the $4.6 billion that you referenced, to mitigate for 
what is happening in China and other countries. And that raises 
really strong concerns on my part in that we have got to have a 
global approach.
    Ms. Reams, thank you for your testimony. I appreciate you 
talking about reducing emissions and addressing climate change. 
And you also noted that we don't need to come in and reduce 
energy choices.
    Can you talk about the importance of the affordability that 
I believe is related to energy choices, the affordability 
issue, as we plot this path forward in terms of a clean energy 
future based on America's resources?
    Ms. Reams. Sure. There is a strong push to reduce 
greenhouse gases by blocking fossil fuel infrastructure, 
including pipelines and exporting terminals.
    We also see the keep-it-in-the-ground movement. And I find 
that to be misguided, and harms our efforts to reduce global 
emissions.
    If the world just switched from foreign to U.S. fossil 
fuels, emissions would be reduced tremendously. And let's not 
forget these developing nations need cheap baseload energy. So 
we are likely talking about natural gas here. And that is there 
for the foreseeable future.
    So the technologies that we need to reduce emissions from 
fossil fuels needs to be invested in. It is a reality.
    Mr. Graves. Thank you very much, Ms. Reams.
    Very quickly, Governor, you brought up the deployment of 
renewable energy technologies. One of the issues that we have 
come across is the bureaucratic red tape in actually getting 
siting and other things through the regulatory process as well 
as reliance upon minerals from China, like rare earths and 
strategic minerals.
    Do you care to comment on solutions?
    Mr. Bredesen. Yeah. My point was that, rather than always 
thinking in terms of how do you, as you put it, tax Americans 
to spend some more money on these things and drive it, that 
there are a number of ways in which simplifying the process of 
siting, giving much clearer insight under the PURPA kinds of 
contracts, the Qualified Facilities rules, into what future 
costs are to make these projects financeable and so on, there 
are things like that that don't cost a dime to the Federal 
Government and really don't cost anything to the ultimate 
consumers, but which unleash a lot of private activity and 
capital in support of this.
    That is not to say you shouldn't ever spend Federal money, 
but I am saying I think the first place you ought to go is 
figure out those things you can do that leverage the obvious 
willingness on the part of private entities to take part in 
this.
    Mr. Graves. Thank you, Governor.
    Yield back.
    Ms. Castor. Rep. Bonamici, you are recognized for 5 
minutes.
    Ms. Bonamici. Thank you, Chair Castor and Ranking Member 
Graves.
    And, really, thank you to our witnesses for your excellent 
testimony.
    This is a perfect time to be having this hearing at this 
point in time in our country where we have about 10 million 
Americans who are unemployed. And we have an opportunity to 
upskill and reskill workers as we build back better. And our 
transition to a clean energy economy will create good-paying, 
high-quality union jobs and support people who have 
historically faced barriers to employment, especially women and 
people of color.
    I want to give a little shout-out to Oregon Tradeswomen, 
which has been doing a great job of diversifying the workforce.
    As we have heard in the testimony, there is already an 
unmet need for skilled workers in the energy efficiency sector. 
Building back better also means restoring that economic 
fairness, with better wages, stronger benefits, fair and safe 
workplaces. And I say that as the granddaughter of a coal 
miner.
    Our Climate Action Plan includes provisions that will 
address these historical failures that left workers behind, 
and, instead, we are going to make sure that Federal clean 
energy investments uphold labor standards. Like Davis-Bacon, 
the use of community benefit agreements, project labor 
agreements. These are going to be good jobs, family wage jobs.
    And I want to start with Ms. Colon de Mejias.
    I appreciated that you noted how energy efficiency can be 
an economic opportunity for quality job creation. And, as the 
founder of the STEAM Caucus, I also appreciated your note about 
the importance of STEAM education to help diversify the 
workforce.
    So I hear from employers like you who are struggling to 
find workers with the skills they need. And, last week, I 
introduced my bipartisan, bicameral BUILDS Act, which I invite 
all the Members to join. This is to scale up registered 
apprenticeships and pre-apprenticeships in the clean energy 
infrastructure and manufacturing sectors and provide workers 
with the support services they need to succeed while they are 
learning.
    So the House also recently passed the first reauthorization 
of the National Apprenticeship Act since the 1930s, which 
addressed some of the challenges you have mentioned.
    So how would more robust Federal investments in quality on-
the-job training programs help address the skills gap in the 
energy efficiency sector?
    Ms. Colon de Mejias. Thank you so much for your question.
    So a couple of things are, one, I think that small 
businesses are able to provide living-wage jobs that offer 
benefits and protections without necessarily being part of a 
union.
    I myself am not part of a union, and I employ 20 people. 
Eighteen are people of color who were underemployed or 
unemployed. And, like I said, no one on my team starts at less 
than $15 an hour, and they all have benefits as well.
    So I think that it is really critical that, as we invest in 
that, we consider the impacts on small businesses and that we 
ensure that those resources are allocated in a way that 
supports small businesses, whether they are part of a union or 
not, and that we ensure that the workforce programs are placed 
in the communities that are most needy so that they can access 
the training and connect with the career opportunities that 
exist right now, today, all across America.
    I hope that answers your question, but you can clarify if 
you would like more detail.
    Ms. Bonamici. It does, and I appreciate that.
    And I also appreciated your focus on public health and the 
benefits of energy efficiency improvements.
    Last summer, Oregonians were facing the compounding crisis, 
not only from the pandemic, but an unprecedented wildfire 
season. Air quality frequently surpassed hazardous levels, 
further endangering the health and livelihoods of those already 
at risk of respiratory issues from the coronavirus pandemic.
    And I will tell you, it was really challenging, because you 
just couldn't get away from it anywhere.
    So how can Congress better support investments in energy 
efficiency and demonstrate the value as a public health 
investment?
    Ms. Colon de Mejias. That is an excellent question.
    And there is the SAVE Act, actual legislation that could be 
supported, which would help us properly evaluate people's homes 
and buildings to ensure that they are getting the demand 
reduction.
    And also, that those benefits are properly informed to 
people so they can make informed decisions when they are 
choosing energy choices, or when they are upgrading their 
buildings or properties, or when they are purchasing something, 
they would be informed.
    The other thing that is important that you bring up on the 
health note is that Yale recently did a study about the 
increasing heat index and how that really is going to hurt our 
vulnerable populations most.
    And so it is extremely important that, as we plan our path 
forward, that we engage in those conversations on how we can 
lift those communities and protect their health through 
expanding energy efficiency and building retrofits, which also 
address health issues at the site that they live in, but also 
at the power plant where the energy is created by doing more 
with less.
    That is what efficiency does, right?
    Ms. Bonamici. Exactly.
    Ms. Colon de Mejias. Efficiency is literally the concept of 
being efficient.
    Thank you.
    Ms. Bonamici. Exactly. And in the district I represent, I 
have a multifamily, low-income housing facility that was built 
to passive house standards. The first phase was 57 units. And 
they have significantly cut energy costs. And it is just--it is 
a great investment.
    So thank you for your testimony all.
    And I yield back.
    Ms. Castor. Thank you.
    Rep. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman.
    I just want to talk a little bit about how our experience 
in pushing for green jobs has worked out for us.
    In 2009, the stimulus package passed by the Democrats and 
the Obama-Biden administration claimed it would produce 5 
million green jobs. And the Brookings Institute reported that, 
of the nearly 2.7 million green jobs that the Obama-Biden 
administration and the Democrats identified, most were bus 
drivers, sewage workers, and other types of work that don't fit 
the green jobs of the future description.
    I just want to make sure that, as you push forward your 
radical Green New Deal, that we have a clear definition of what 
the green jobs will be.
    I also want to point out that, in order to convert to a 100 
percent renewable energy grid, or 50 percent, whatever it is, 
the goal that you have established, that much of the materials 
that we are going to need to produce the solar panels and the 
turbines is going to have to come from China.
    Germany has already experienced this. In 2011, they had 
300,000 green jobs in Germany. By 2018, it was down to 150,000. 
And part of that is because the companies that were trying to 
produce the materials for the construction of their turbines 
couldn't compete with China. And that is largely because in 
China they are using forced labor. That includes forced labor 
in the mines, forced labor in manufacturing.
    And I just wonder from the panelists if people support, 
being in a very disadvantaged position with China, if they 
still would support this green agenda, if we are relying on 
China, and China is providing these materials with forced 
labor.
    So any of the panelists can respond to that if they would 
like.
    Go ahead.
    Ms. Colon de Mejias. Hello, Rep. Palmer. My name is Leticia 
Colon de Mejias, just so you know who I am.
    Mr. Palmer. I know who you are.
    Ms. Colon de Mejias. And I agree that it is important that 
we keep our eye on the world and the progress that is going 
forward. But as an American I know that we have always led the 
way in doing the right thing, both nationally and 
internationally.
    And I believe strongly that it is not a matter of red 
versus blue, but this is really a matter of red, white, and 
blue, because we have the opportunity to really do this right 
this time, to plan it collectively together, and ensure that 
the jobs are really good jobs for Americans and that they truly 
do lift our community and strengthen our energy grid as we go.
    Mr. Palmer. Okay. I am all for the red, white, and blue, 
but the fact of the matter is we don't produce these materials, 
and China is producing them using forced labor. They have got 
kids working in mines and working in manufacturing.
    And, again, looking at just the fact-checking on what 
President Biden said during the campaign on a million new auto 
jobs, Associated Press did a fact check and said that it is 
actually far from certain. It is not even likely.
    What I hear a lot here, and I know this will offend some of 
you, but it is propaganda. Coming from having worked for two 
international engineering companies, I have a pretty good 
understanding of what it takes to get things done. And then to 
make these claims about all these green jobs that you are going 
to produce, there will be some green jobs that will be highly 
inefficient in terms of energy production.
    And, Madam Chairman, I don't see a clock. Oh, I see it now. 
So I have got just a little time left.
    We are not going to be able to give the United States a 
secure energy future with renewables. There is no way to do it. 
And even if we went 100 percent renewable, reputable scientists 
will admit, if the United States went to absolute zero-carbon 
emissions it would not stop climate change--if the entire world 
went to absolute zero.
    And you have got China, on the other hand, just in the last 
year, 75 percent of the increase in energy consumption was in 
China. They are ramping up their coal mining. They are 
militarizing the South China Sea for energy extraction. They 
are even moving toward the Arctic for mineral extraction.
    So I just think we need to have a major reality check here 
about what we are going to be able to accomplish for this and 
the type of jobs we will be able to produce.
    I am fine with bus drivers and sewage workers. And the 
Brookings Institution--even the Bureau of Labor Statistics, not 
Brookings, even identified Green New Deal lobbyists as green 
jobs.
    So with that, Madam Chairman, I yield back.
    Ms. Castor. Okay. Rep. Brownley, you are recognized for 5 
minutes.
    Ms. Brownley. Thank you, Chair Castor, for bringing us 
together. All the hearings we have been having in the 116th and 
now the 117th, we have really gained a great deal of knowledge 
and learned from so many some of the great innovative things 
that are taking place across the country. So it is very, very 
exciting.
    And I thank the witnesses for being here.
    Governor Bredesen, I wanted to ask you, in your written 
testimony, at the very end of your written testimony you gave 
some practical steps of things that we should do or could do. 
And one I didn't quite understand, which was to allow--to 
reward utilities that publicize their price for energy for 
longer than 5 years.
    So maybe I am not behind the eight-ball here, but I just 
didn't totally understand what that meant.
    Mr. Bredesen. Sure. PURPA makes available to investors in 
the United States the ability to build solar and put the solar 
energy thereby produced to utilities. They are called 
qualified--Federal qualified utilities. And the utilities, in 
turn, have to give the investor 5 years of visibility into what 
their affordable cost, what the rate is going to be going 
forward. Okay? All that makes sense.
    That 5 years is an arbitrary number. It was developed in 
some fashion. Unfortunately, what that is, is not enough time 
to allow anyone to finance a facility. I mean, 15 or 20 years 
of visibility allows the financing; 5 doesn't. And utilities 
understand that.
    So what it says, first of all, you could, with a simple 
regulatory change and suggesting that utilities be forced to 
make available what the avoided costs are for 15 or 20 years 
into the future--they have these numbers--suddenly makes a lot 
of projects financeable by investors and releases capital.
    And I said, second of all, that one of the problems 
utilities have with this is that some places you put it on the 
grid it is a pain in the neck for. It is problematical to their 
grid. There are plenty of other places where it is very helpful 
on the grid, in terms of load balancing or where they need it.
    So something like saying, if you put these things in some 
areas where they are useful to utilities, it helps them, we 
will give you this kind of visibility into it. I mean, opens up 
an enormous amount of potential private investment into the 
construction of the solar facilities.
    It does not cost the Federal Government a dime, probably 
doesn't cost any ratepayers anything either given the cost of 
these facilities now. Just an alternative to the more 
traditional kind of let's appropriate money or let's give tax 
incentives.
    Ms. Brownley. Thank you so much for that, Governor.
    Mr. Lau, I wanted to ask you--I am a former legislator from 
California, so spent some time in Sacramento. So thanks for 
your leadership. And Chair Castor, her opening question to you 
was asking about this aggressive, ambitious goal that you have 
announced to get to zero by 2030.
    And in your written testimony you talked about it is going 
to cost you upwards of $4.6 billion. And you also go on to say 
that, to put that into perspective, that your annual revenue 
over a 3-year period ending in 2019 is roughly $1.5 billion.
    So I guess my question is, how are you going to do this? I 
mean, where are you getting the resources to make these really 
important investments that I think will get you there and 
without really making extensive increases in rates to the 
ratepayer?
    Mr. Lau. Thank you, Congresswoman Brownley. So I think that 
is a great question.
    So one of the things, a tenet of how we are going to get 
there, is really kind of partner with our customers and partner 
with the private investment companies.
    And so what we want to do is, once we put the goal out 
there and this is the kind of investment that we are going to 
need, we are going to look to create partnerships with the 
cities, the counties, the air quality districts, the air 
resources board, to start actually pooling our resources 
together to fund this endeavor that we are talking about.
    Because right now I think, in the Brookings Institute--
Sacramento, we are one of the most diverse cities in the U.S., 
but we do a lot of things by itself, like air quality by 
itself, greenhouse gas by itself, energy by itself, 
transportation.
    So what we are doing is that we are pooling our resources 
together. And we are working with private industries, like Ms. 
Mejias, about what do we need to do to create those jobs. Where 
do we increase energy efficiencies? Where are we putting 
chargers? What is the best way for us to pool that capital 
together to do that?
    Now, one of the things that we are also doing is, 
certainly, we are looking to leverage technologies to drive 
down our internal operation costs and be as efficient as 
possible. And so we are taking advantage really about what the 
customers are putting in.
    The customers are putting about $180 million of what we 
call DER--it is like rooftop solar, batteries, electric 
vehicles in the area. So what we want to do is that we want to 
co-optimize their investments for the benefit of the grid.
    And so, case in point I think, you heard Governor Bredesen 
talk about putting infrastructure in where it benefits both the 
customer and the grid.
    We have something called StorageShares. So Electrify 
America was putting in DC fast chargers, and they want to put 
in batteries in a location where the grid doesn't need it. We 
have excess capacity there.
    So we actually worked out a partnership with them to say, 
hey, put this over here and we will give you the same 
arbitrage, the same rate arbitrage, the same, just like the 
batteries actually next door to you.
    And so this is how we are co-investing and leveraging what 
our customers are putting in to do this.
    Ms. Castor. Thanks very much.
    Mr. Lau. Thanks.
    Ms. Castor. Rep. Miller----
    Ms. Brownley. Thank you, Mr. Lau.
    Mr. Lau. Thank you so much. Sorry for the long-winded 
answer.
    Mr. Castor [continuing]. Representative Miller, you are 
recognized for 5 minutes.
    Ms. Brownley. I apologize. I yield.
    Mrs. Miller. Thank you, Chair Castor, and also Ranking 
Member Graves.
    And thank you to all of you witnesses for being here today.
    During my time on this committee, my colleagues have heard 
me talk many times about the war on coal during President 
Obama's term. These disastrous policies decimated my state of 
West Virginia. They not only closed the mines, but they 
shuttered entire communities that supported their workers.
    And with that came such a hopelessness that it cast a dark 
shadow in the southern part of the state, and certain parts 
where the families still struggle to put food on the table. And 
many of them succumbed to the opioid epidemic.
    Our fossil fuel workers are the giants that we now stand 
atop. We cannot and should not forget the advancements that 
these workers and industries have made. We are now able to 
produce our energy in a much more clean manner with a less 
carbon footprint.
    Completely turning our back on fossil fuels, like many of 
my colleagues would like to have you think we should do, is not 
only shortsighted, but it will take jobs away from hardworking 
Americans.
    American energy independence, achieved thanks to our coal, 
natural gas, and oil industries, has made America less reliant 
on malign actors. They have created thousands of jobs, and they 
have helped reduce our own energy poverty within our own 
country.
    Furthermore, exporting our energy to our allies and the 
developing nations, in my opinion, is the key to reducing 
emissions around the world. American energy has the potential 
to raise those in other countries out of poverty and can also 
minimize dangerous governments' influences worldwide. I think 
of the Ukraine when I say that.
    Ms. Reams, can you talk about the potential of exporting 
America's cheap baseload energy to other countries and how it 
could help their economies to come online?
    Ms. Reams. Thank you for the question, Congresswoman.
    And as a mother it breaks my heart to think about the 
families and the opioid addiction and the challenges that 
joblessness and hopelessness can bring, and also thinking about 
developing nations and those mothers, those parents who want to 
offer their children a better life.
    And energy is part of that. It is not about which kind of 
energy, but will they have energy? Because it is going to pull 
them out of poverty. It is going to mean a better quality of 
life, better healthcare, better education. And that starts with 
what we are doing here in the United States and the 
technologies that we can create to export them abroad.
    There is no doubt that fossil fuels will be around for a 
while, particularly in the developing nations, and it is up to 
the U.S. and countries like us to develop those technologies, 
to sequester that carbon however we can, so that those 
countries can get out of poverty.
    This is the right thing to do, but I say that also as not 
just an advocate, but as a mother.
    Mrs. Miller. In your testimony you talked about developing 
nations that are growing markets for American energy. Can you 
discuss the benefits of exporting American energy to these 
nations?
    Ms. Reams. Absolutely. Developing nations are a market for 
a lot of countries, not just the United States. So who is 
getting there first, and who is going to provide them the 
energy, the fuel they need to fund their economies and improve 
their lives?
    Even if the U.S. got to net zero tomorrow, we know that we 
still have a lot of work to do around the world. It is not 
enough that just the United States is fighting climate change.
    So this is exportable. This is global and exportable.
    That still means great jobs here in the United States. And 
we have great examples of Federal investment and expanding 
private sector dollars, sometimes 22 times the investment from 
the private sector from public sector dollars.
    So this is the jobs here that we can have. It is not just 
the clean energy jobs here in the United States, but it is also 
that technology that can be exported, I think, that is most 
exciting.
    Mrs. Miller. Well, how do you think American energy can 
reduce energy poverty around the world?
    Ms. Reams. Yeah, absolutely. I mean, we have got abundant 
natural gas, for instance. It is cleaner than any other natural 
gas that we have around the world. I say this statistic, I 
think, in my testimony, but if we actually went straight from 
U.S. fossil fuels from foreign fuels, we would be reducing 
emissions.
    So we are a good actor in the geopolitical world, and 
getting American fuels into these countries is not just 
important, it is good for a stabilizing factor, but also brings 
energy online where we have got families that actually have 
energy. They are not thinking about what kind of energy. When 
you don't have any, you want something.
    And I think it is wonderful to think that we can be 
developing our technology, investing today for tomorrow's 
technology so those nations--those people--can have a better 
quality of life.
    Mrs. Miller. Thank you. I yield back.
    Ms. Castor. Thank you.
    Rep. Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you so much.
    I did just want to just comment quickly on the last 
exchange. It is really critical that we look out for workers 
who are losing their livelihoods in coal country.
    But let us make no mistake. Longwall mining killed coal 
jobs. Economics killed coal plants. And it is tragic that the 
folks who represent Appalachia looked out for the interests of 
coal owners to reduce labor content when it was for longwall 
mining, and they are now making a big deal. Let's all look out 
and let's do this on a bipartisan basis.
    Mr. Lau, really, really enjoyed your testimony. I am a 
former utility CEO myself, a little smaller than yours, but 
upstate New York. And we struggled a lot with trying to fix the 
problems in rate regulation so that we could actually share in 
the benefits of energy efficiency with our customers and got 
New York State to come up with some fairly creative regulatory 
approaches to that.
    In your answer to Rep. Brownley, I found myself wondering 
whether the tools you were able to use are unique to your 
position as a municipal utility, or are those tools applicable 
to IOUs and co-ops as well?
    Are there things we could do to allow other utility-type 
structures to do what you are doing, deploying a tremendous 
amount of capital into cheaper and cleaner energy?
    Mr. Lau. Thank you. Thank you, Congressman Casten.
    So I think it absolutely can. So, I mean, I think SMUD, we 
receive $127 million from the AGRI grants from the Obama 
administration. And we are able to test. Like, we were one of 
the first utilities in California to push into time of day 
rates, or time of use rates.
    So we started moving away from the tier structure, and we 
are now moving forward in terms of looking at critical peak 
pricing. And we are thinking about now, how do you invite 
people with DERs and third parties to come in with virtual 
power plants, to start actually leveraging not just energy 
efficiency, but really about load flexibility?
    How do you use rates to incentivize behaviors for customers 
to use energy or renewable energy when it is in abundance, like 
midday off-peak pricing, and then also, give pricing, like 
critical peak pricing, when it is most expensive?
    So absolutely I think some of the stuff that we have done 
from a rate design perspective is something that could be 
copied across utilities across the U.S.
    Mr. Casten. So on that subject, there has been a lot of 
talk lately in California about sort of the ever-deepening duck 
curve. And last term I introduced and we got signed into law 
the BEST Act to bring--to put about a billion dollars into 
energy storage research, development, and deployment to smooth 
some of that out.
    Today, I introduced with Senator Heinrich the Interregional 
Transmission Planning Improvement Act to try to better connect 
resources around the country.
    Are there other things that you would like to see our 
national labs doing in working with you as far as technology 
deployment to make sure that those increasingly dramatic 
changes in the time of use in your load profile can be smoothed 
out a little better?
    Mr. Lau. Yeah, absolutely. I mean, the third thing is that 
on the utility grid side--I mean, one of the challenges of 
renewable energy is a lot of it is intermittent. So the more 
that you can actually start actually creating, like, baseload 
and renewable energy, like green hydrogen, about burning green 
hydrogen in our plants, is one way to shore that up.
    The other piece is really about taking advantage of the 
Renewable Act could really help us to retool the grid challenge 
that we have. Think about, at least in California, we can have 
5 million electric vehicles by 2030.
    And so each one of those--I have a Tesla, and I can easily 
charge my Tesla and pump 5 kW of those for 4 hours during the 
peak hours.
    So how do you actually leverage the DERs for the benefit of 
the grid and reliability is something I think that the Federal 
Government can really, really help us in terms of driving the 
cost of those DERs' adoption across the U.S., but then also 
helping on the power sector.
    And actually I love your thoughts about the transmission 
piece, about opening up transmission so that renewables from 
regions could be exported. And so now you have regional 
diversity to help with the reliability issues that you were 
talking about.
    Mr. Casten. Well, thanks. So many of those rules are state 
and local utility regulations. And if you have thoughts on how 
we might nationalize some of those, I would love to work with 
your office on that.
    In the few minutes I have left, Ms. Reams, I really, really 
appreciated your written testimony, in particular when you said 
that--I think I have got this quote right--``Never ending 
subsidies skew markets in a way that stifles American 
innovation.''
    I could not agree more, as a guy who sat there as an 
innovator deploying clean technology.
    If you had an industry that over the last decade had seen a 
45 percent reduction in demand for its product as competition 
came along, that saw a 40 to 45 percent reduction in their per-
unit price because there just wasn't the demand to prop that 
price up, that saw $340 billion of negative cash flow, that saw 
250 bankruptcies, do you think government should subsidize that 
industry to keep it afloat?
    Ms. Reams. I think that mature technologies--there is a 
tough argument to be made for mature technologies receiving any 
kind of subsidy.
    Mr. Casten. Okay. Well, I agree. I just described the oil 
and gas sector. That was 45 percent decline in coal, 40 to 45 
percent reduction in the prices of coal and gas, $342 billion 
of negative free cash flow in the shale gas sector, 250 
bankruptcies, $20 billion of write-offs for ExxonMobil. And, 
yet, according to the IMF, we still subsidize the fossil fuel 
industry to the tune of $650 billion, with a ``b,'' dollars a 
year.
    We need a level playing field, and we need to stop deluding 
ourself that the level playing field doesn't overwhelmingly 
skew to the dirty energy sector.
    Thank you. I yield back.
    Ms. Castor. Thank you, Rep. Casten.
    Rep. Gonzalez, you are recognized for 5 minutes.
    Mr. Gonzalez. Thank you, Chairwoman Castor and Ranking 
Member Graves, for holding this hearing today, and to our 
distinguished witnesses for joining us.
    My fear, as always, is that there is a growing consensus on 
the other side of the aisle that rapid technological changes 
are becoming so disruptive and renewable energy is so cheap 
that there is no economic risk in accelerating or even 
mandating a path to zero-carbon emissions.
    But the experiences of our European allies reveals that 
such thinking can actually be quite harmful. If you look at 
Germany as an example, instead of using market incentives to 
establish a viable and cost-effective introduction of 
renewables, they deployed massive subsidies to wind and solar 
technologies that increased household energy rates by 7.5 
percent and forced greater dependence on foreign suppliers, 
like Russia, for natural gas, because they were shutting down 
their nukes, which didn't make any sense to me.
    But if our goal is to subsidize renewable energies and rely 
on them alone to supply the baseload, I think we need to 
realize that there will be immense trade-offs--higher energy 
costs for low-income Americans, greater reliance on Russia and 
China, less dependable electric power, more blackouts, lower 
economic growth, and less capital investment in the 
breakthrough technologies that will help us achieve an energy 
transition.
    I have been on the record in this hearing and in my 
Science, Space, and Technology Committee and worked with Rep. 
Casten on the BEST Act.
    But I believe we need to invent our way through this, we 
need to invent our way out of this. I do not believe the 
existing suite of technologies can get us all the way there in 
a way that doesn't force us to make brutal trade-offs for low-
income Americans.
    Ms. Reams, in your testimony you emphasized the importance 
of developing innovative, cost-effective technologies here in 
the U.S. that can be exported across the world. I could not 
agree more.
    In your assessment, what clean energy technologies have the 
greatest potential for breakthrough?
    Ms. Reams. Well, that is a great question. Thank you, 
Congressman.
    I mean, first of all, knowing that there is investment in 
technology, we have the private sector that comes in, in a big 
way. So I think that that is important to know. With any kind 
of investment, we are going to get good ROI on our investment.
    The emerging technologies that we are seeing in advanced 
nuclear, we are seeing in green hydrogen, are showing 
tremendous promise. Also, in carbon capture utilization and 
sequestration.
    But I would be remiss if I wasn't talking about other 
technologies, such as offshore wind, that are receiving 
challenges simply because of permitting processes. It is an 
untapped area as well.
    Mr. Gonzalez. Also a challenge with the advanced nuclear, 
right? I have spoken to some--to Oklo, for example, and the 
fact that they have made it as far as they have is actually--
sounds like a miracle based on the amount of red tape that they 
have been forced to run through as somebody who is trying to 
innovate in the nuclear space, which is something I believe we 
desperately need.
    You also highlighted the history of U.S. solar innovation. 
Specifically, you mentioned China was able to steal our 
technology and corner the manufacturing market because of weak 
trade and IP protections. That is an issue across the economy, 
not just in clean energy, of course.
    What policies do you think we should be considering to 
ensure more companies feel confident enough to invest in 
innovative technologies and protect themselves from the IP 
theft issue?
    Ms. Reams. First of all, definitely protecting the IP theft 
is a national problem. As an entrepreneur, we know that this 
has a chilling effect on any kind of investment when you know 
it is going to be stolen. So I think those protections and 
trade policies are going to be incredibly important moving 
forward.
    I think with this we should not make that mistake again 
when we have misguided policies that incentivize jobs overseas, 
in China, but we are not getting the ROI here in the United 
States.
    So we need to make sure, when we are creating these jobs, 
that they are here domestically, that the technology can be 
exported, not necessarily the regulatory, not necessarily the 
people, but we are keeping them here onshore.
    Mr. Gonzalez. Yeah. No, I couldn't agree more. I think this 
issue creates a lot of difficult trade-offs. But it also 
creates an opportunity.
    If we do fund the right R&D, if we do develop the 
innovative technologies that are going to allow us to emerge 
from this scenario and lead the world really, it will allow us 
to grow our economy, it will create jobs domestically, and it 
will be good for the environment and the planet, which I think 
is something that everybody wants on this committee and across 
the country.
    And so I am encouraged that hopefully we can find some 
bipartisanship on that front. And with that, I yield back.
    Ms. Castor. Thank you, Rep. Gonzalez.
    Next, we will go to Rep. Escobar.
    You are recognized for 5 minutes.
    Ms. Escobar. Thank you, Madam Chair.
    And many thanks to our great panelists. I really appreciate 
this conversation this afternoon.
    I can tell you, I think, that the vast majority of 
Americans are really looking forward to some pretty broad, bold 
solutions, with an eye towards saving our planet. We just need 
to provide Americans the tools and the access to opportunity 
for jobs and to participate actively in helping save our 
planet.
    In my district, we are nicknamed, actually, the Sun City 
because we have about 300 days of sun every year. Yet our local 
utility has yet to fully harness that clean, natural resource. 
Our local electric utility, in fact, is about to build a new 
natural gas facility.
    We heard yesterday from Secretary Kerry that the 
advancement of facilities like this will create in the future 
stranded assets, stranded assets that are paid for by 
ratepayers.
    So we have got to find ways of incentivizing utilities and 
business owners in districts like mine that the time to 
transition is now. But it is really challenging.
    Mr. Lau, in your testimony you discussed in great detail 
how your utility is moving to net zero, and that is incredible 
and very exciting. But local utilities like mine that are 
private entities, they are moving at their own timeline to 
reach net zero, if they even have one at all.
    Do you have any suggestions for how Congress can begin 
encouraging private utilities to make the transition to net 
zero now to reduce their carbon footprint and avoid building 
stranded assets?
    Mr. Lau. Thank you, Congresswoman. I think that is an 
excellent question.
    I think one of the things Congress can do, they can really 
actually offer incentives for those utilities, working with the 
Federal Government, working with the labs, to really kind of 
take the utility-scale renewables into their portfolio in a way 
that does not actually harm their stockholders.
    And so one of the things I would recommend Congress do is 
have those utilities work with the local communities, really 
find out about really what they want.
    So one of the great, I guess, tenets of our plan was that 
we worked--we have been having at least 12 community meetings. 
We met with 600 customers and stakeholders to have them jointly 
input what they want in a clean energy plan and how it is going 
to help them.
    So I would implore Congress, in terms of allowing those 
utilities, the private utilities, as a way to work with the 
local communities so that their wants and needs, in terms of 
transitioning to a zero-carbon economy, and making sure that 
the underserved communities are not left behind.
    I think that is one of the things that is key and central 
about making sure that the jobs you are going to create in this 
transition are front and center, the underserved communities 
are actually being served.
    That is one thing I would recommend.
    Thank you, Congresswoman.
    Ms. Escobar. Thank you so much.
    Ms. Colon de Mejias, that is a great transition to a 
question for you.
    What can we do to make sure, to guarantee that we are 
bringing emerging green energy jobs and technology to 
economically disadvantaged communities like the one that I 
represent?
    Ms. Colon de Mejias. Thank you for the question, 
Congresswoman.
    I think it is really important at this time that we make 
great efforts to engage those groups in conversations and 
dialogue and ensure that there is access to both training and 
general broad sets of information on energy and the 
interconnections between health, economy, jobs, and really 
level the playing field by ensuring that they have access to 
that information in a way that resonates with them.
    I also think it is really important that we ensure that 
everyone understands that these jobs are available to anyone 
who has an interest in training for them, and that they can 
change careers at any time and take on a new industry.
    Earlier, somebody mentioned the 2009 investment in green 
jobs, and I am one of the people that came out of that era of 
investment in green jobs, as are the people that work for me 
now. All 20 of them have been with me that long.
    So although I agree that sometimes things don't work out 
exactly as planned, there certainly were a lot of benefits from 
those investments that we are still really reaping today.
    Ms. Escobar. Wonderful. Thank you so much.
    I am just about out of time, so I yield back.
    Ms. Castor. Thank you so much.
    Rep. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair.
    And thank all of you for being here. Very important 
discussion.
    Ms. Reams, I want to start with you and ask you, you said 
in your testimony that the U.S. is not in this alone. We are 
not in a vacuum here. This is a global problem. We all 
understand that, and we all understand how important it is that 
we work together with other countries to make sure that we are 
all doing our part in reducing global emissions.
    A ton of carbon in the atmosphere causes just as much harm 
no matter where it comes from. Whether it comes from U.S. or 
China or wherever it comes from, it is still a problem.
    But I want to ask you, Ms. Reams, specifically, can you 
speak to the marginal cost of us in the U.S. further reducing 
emissions versus working to reduce emissions globally?
    Ms. Reams. Actually, I don't know that I can do that, 
Congressman. Could you rephrase the question just a little bit 
further?
    Mr. Carter. Well, what I am saying is, essentially, we 
don't live in a vacuum, and we all understand how important it 
is that we help these other countries to decrease their 
emissions as well.
    Look, I believe in climate change, and I think it is real. 
And a lot of my constituents do. A lot of people in my party 
do. They believe it. But they don't think that we here in the 
U.S. should be all suffering the consequences, economically 
especially, and financially, when other countries aren't doing 
their part.
    You know, at some point you reach a rate of no return, and 
that is what I am trying to get at here. At what point do we 
reach that? At what time do we reach that point where we are 
doing--I mean, it has been said that if the U.S. were to 
decrease our emissions to zero, that unless the other countries 
do their part, it is not going to help. It is not going to 
change.
    Ms. Reams. Understood, Congressman, and thank you for the 
question. I do understand now.
    Absolutely, this is something that we have talked about. I 
think it is a great conversation to talk about the jobs that we 
can create here in the United States on dealing with clean 
energy and clean tech, and that is exciting.
    But we also have to look abroad and seeing what those 
countries need as well. And it is just access to energy. 
Sometimes it is really that simple.
    But there are bad actors out there, and I will point to 
China in particular, that is allowed to pollute regardless of a 
Paris Agreement. This was codified in the Agreement years ago. 
And that is of concern.
    Polling shows that voters--not just Republicans--that 
voters believe in more of a level playing field when it comes 
to responsibility and payment for these issues. So why do we 
let China off the hook while the U.S. continues to reduce its 
emissions and then pay--and also pay for the climate challenges 
that we will have as a result of that pollution from China and 
other nations?
    So we have got to get real about where the global emissions 
are coming from. They are emissions. And it is not necessarily 
from any particular energy source, although some are higher 
carbon emitters than others, but it is the pollution that is 
the problem, not necessarily the energy source.
    And, again, I point to--and we talked about this with Carol 
Miller, Representative Miller--is the opportunity to have a 
more civilized nation, a cleaner, healthier nation, when you 
have got access to any kind of fuel. We want it to be cleaner. 
That is why the technology developed here in the United States 
today needs to be exported.
    Mr. Carter. Right. And I appreciate that, because that is 
one of the biggest complaints that we get. And it is not 
necessarily America first as much as it is we just want a level 
playing field. You know, we want to do our part, but we want 
them to do their part as well. And who can blame anybody for 
feeling that way?
    I want to ask you, Governor--and, first of all, I want to 
thank you, Governor, for highlighting the success that we have 
had in the State of Georgia with solar energy. We are now one 
of the top ten states in the nation as far as solar energy 
goes. I am very proud of that. Because we have got a lot of 
pine trees in Georgia. We have got a lot of sunshine, too, 
especially in south Georgia.
    In your testimony you said this hasn't really happened in 
the name of climate change and it is not really driven by 
mandates, but scale solar comes with a lot of permitting and 
regulating and regulations. And I just wanted to see if you 
could talk about the regulatory situation that has made it 
easier to pursue projects like this in Georgia.
    Mr. Bredesen. Sure.
    First of all, I am, as you know, very aware of Georgia. I 
think we may have built a lot of that solar that you are 
describing there and so on.
    Mr. Carter. Yes.
    Mr. Bredesen. Georgia has been an easy place to do 
business, both because it has a lot of sun and the economics 
work, but also because the communities have been very 
interested in and accepting of it.
    Some of these rural communities, I am sure you know well, 
that they are very conservative communities, and they actually 
love the idea of something which helps to begin to move beyond 
simply being simply sort of a farming economy.
    These solar plants, when they are built, typically become, 
the day they open, the largest taxpayer in the county, and they 
use very few services in return for that. There are counties 
that have increased teacher pay, for example, simply because a 
new solar farm has come in.
    So in Georgia it has not been an issue. Certainly in other 
parts of the country it is. Permitting is not always easy in 
that regard.
    But if you had to look for a place, a pressure point, I 
would say that easing the process of financing and connecting 
into the grid these things, the regulatory from that standpoint 
as opposed to local land use or something like that, is 
probably the point that would free up the most sort of new 
private capital and new investment in this area.
    Those become significant issues. There are huge, huge 
backlogs, for example, in getting permissions for 
interconnections that are unnecessary in the way they are. And 
I am hoping that in some way one of the results of this 
committee can be to start focusing on some of those kinds of 
issues.
    Mr. Carter. Exactly. And I know I am out of time, but what 
a great point. Thank you, Governor.
    And, Madam Chair, that is one thing we on this committee 
need to be working on, is those regulations.
    So thank you. And I yield back.
    Ms. Castor. Thank you, Rep. Carter.
    Next, we will go to Rep. Levin.
    You are recognized for 5 minutes.
    Mr. Levin. Thank you, as always, Chair Castor. I appreciate 
you holding this hearing today. I think the topic is critical.
    The world recognizes we need to significantly and 
permanently reduce our greenhouse gas emissions. We have got a 
whole series of events happening this week along those lines.
    And I think the question remains whether we, as the United 
States, will capture here domestically the benefits of 
developing, building, and exporting the clean energy and 
transportation technologies of the future, and I am committed 
to ensuring that we do. But we in the Federal Government have 
an important role to play in making that a reality.
    And I think I speak for many of my colleagues, we are 
thrilled that the Biden Administration has given us a strong 
path forward through the American Jobs Plan, which includes so 
many recommendations from this committee's Action Plan. And I 
hope that my colleagues will join me in working to advance this 
initiative as quickly as possible.
    One last thing before my question.
    So I want to give a shout-out to SMUD for your continued 
leadership. And I do hope that in the months and years ahead we 
can come as a committee, or a group of us can come and visit 
you, as well as the California Independent System Operator and 
California Resources Board. I think that would be great.
    And I hope that some of our colleagues across the aisle 
can, I guess, have some of the preconceived notions they may 
have about how California does things and either prove or 
disprove those notions based on lived experience and actually 
seeing and understanding firsthand.
    Governor Bredesen, I wanted to turn to you. I was so 
pleased to see your testimony highlight the need to deploy 
clean technologies that have already been developed and that 
are ready to be built out. I have been a strong advocate for 
clean energy tax incentives, like the investment tax credit, 
and the importance also of refundability.
    That is so important as the economic impacts of COVID have 
made it very hard to finance projects. And by strengthening 
incentives, I hope we will accelerate further development of 
wind and solar and other clean energy projects.
    So, Governor, do you think we need to extend, expand, and 
strengthen Federal clean energy tax incentives? And how do 
Federal incentives help create jobs across the country, in 
particular in Tennessee and other states that you are working 
in?
    Mr. Bredesen. First of all, the existing tax credits, they 
certainly are helpful. There is no question about that. I think 
one of the most important ways, though, in which they help, 
which is not always seen, is that there are places in the 
country that wouldn't need those credits. The solar is cheap 
enough that it can be--it is economic on its own terms.
    But what that does is really open up solar as a competitive 
entity in a lot of parts of the country where it still would be 
very marginal. And I think it is in our interest to make sure 
that Minnesota and Wisconsin and the Dakotas and so on have 
access to these kinds of technologies as well as New Mexico and 
Arizona and California's Central Valley and so on, so from that 
standpoint they are successful.
    On the issue of refundability, there is no question that 
monetizing those tax credits is a pinch point at the moment in 
terms of developing solar.
    I personally would not want to see us go back to 
refundability at the individual developer level, because when 
we had that--I think it was section 1602 stuff--I mean, there 
was a lot of fraud that went on there.
    There was just a lot of--I used to describe it as you would 
get these companies that were the Acme Donuts and Solar Company 
or something that were doing stuff, and the stuff that was 
built was not all that useful in terms of its connection to the 
grid and its reliability.
    What having to go through a third party for these tax 
credits has done is really to force a third set of eyes on 
that, an independent review. And the stuff which is being built 
under those conditions is much higher quality and much longer, 
longer term.
    I think, however, that changing the rules, perhaps making 
them refundable after 6 months or a year at those levels, would 
open up that market a lot more than it is right now, which is 
really limited to a few big banks in the country.
    So I think you are on to something with that, just would 
strongly suggest not going all the way back to the individual 
tax credits, because I think they were problematical.
    Mr. Levin. Well, I appreciate that, Governor. Thank you for 
your leadership and your perspective.
    And, very briefly, if I may, Chair Castor, I had a question 
for Ms. Colon de Mejias.
    I am working on an energy efficiency bill in the Veterans' 
Affairs Committee that would provide veterans with--or Veterans 
Affairs--the opportunity to factor energy savings into a 
veteran's monthly income for the purpose of determining their 
ability to repay a home loan when the veteran provides an 
energy efficiency report for the home. And the idea there is to 
increase the veteran's buying power by offsetting regular 
expenses for the home calculated in the debt-to-income ratio.
    So, in general, do you see value in that sort of policy? Do 
you think it can help improve residential energy efficiency? 
And was curious if you had any other thoughts or suggestions, 
briefly.
    Ms. Colon de Mejias. Thank you for that question.
    I always think that valuing things appropriately and 
providing the information directly to the consumer is extremely 
important. Whenever we are evaluating anything, we should do it 
appropriately and count all the benefits and all the costs at 
the same time, right? So, yes, that is very important.
    The other piece of bipartisan legislation that comes to 
mind, you asked a question about taxes a minute ago, is that 
there are bipartisan Hopes for Home legislation that will be 
introduced by Welch and McKinley. And this actually would help 
shore up American housing and afford supports to middle-class 
families and working families [inaudible] drawing down energy 
bills.
    The other complementary piece to that is the 25C tax 
incentive, which would also go directly to support middle-class 
and working families and drawing down their energy burdens, 
including veterans. And I employ some veterans. I love and 
respect them very much. They are really beneficial to our work.
    So thank you for your question.
    Mr. Levin. Thank you so much.
    I yield back, Chair. Thank you.
    Ms. Castor. Thank you.
    Now I recognize Rep. Huffman for 5 minutes.
    Mr. Huffman. Thank you, Madam Chair.
    As we have heard from our witnesses here today, there is an 
enormous economic upside to climate action. As we decarbonize 
this economy to avoid climate disaster, we can simultaneously 
seize these huge opportunities.
    And, Mr. Lau, you and SMUD are really showing how that can 
work. So let me congratulate you on your big announcement 
today, a plan to completely eliminate carbon emissions from 
your power supply by 2030, exceeding President Biden's goal of 
a carbon-free electricity sector by 2035. That is fantastic.
    And you have gotten a little bit of a taste today of how 
some of our colleagues in Congress are pushing back against 
climate action.
    Today's hearing about the economic upside of clean energy, 
something that shouldn't even be controversial, is apparently 
so threatening to the fossil fuel industry and its champions in 
Congress that they keep talking about China as some kind of 
excuse for fossil fuel business as usual, as if China somehow 
wants the U.S. to seize all these opportunities and become the 
global leader in innovation and investment and dominate the 
global clean energy economy. It is really preposterous.
    You have also heard the suggestion that we should not seize 
all of these clean energy opportunities unless and until China 
stops polluting. And just to be clear, no one is proposing to 
give China a pass, especially now that the United States is 
back in the Paris Accords, now that we have allies again, now 
that we are pursuing a climate-focused foreign policy.
    But as we work on emission reductions from all countries in 
the world, including the Republican's favorite new country of 
China, we are not standing still here at home. We are not 
waiting for fossil fuel champions in Congress to tell us when 
China has finally done enough for us to take action.
    So let me come back to the subject of this hearing and to 
another issue that our Republican colleagues like to bring up 
when we talk about climate action: cost.
    The world's leading scientists and economists have 
explained over and over the cost of inaction is astronomical, 
but invariably, when we talk about confronting this crisis, we 
are told climate action just costs too much.
    Now, the Sacramento region is economically diverse. You 
have got struggling working families trying to pay their energy 
bills. And you noted your commitment to keeping energy bills 
affordable to those customers.
    Would you please explain how that can be done?
    And as you do that, please, if you can, touch on how, when 
it comes to the price of energy, it is not just the unit cost 
or the price per kilowatt-hour that matters, it is the overall 
bill. If energy efficiency and conservation results in lower 
bills, even with higher nominal rates, that is still a good 
deal for consumers.
    So, please, as an expert in this sector, if you could 
explain how that works to the members of this committee, 
because they often seem to be confused about California's 
electricity bills.
    Mr. Lau. Thank you, Congressman.
    I think you are absolutely right. People don't pay rates. 
In fact, most customers don't even know how much they pay for 
kilowatt-hours. People pay bills.
    So one of the things that we have been doing is that we 
have been working very aggressively with our community to let 
them know the benefit of energy efficiency, as Ms. Mejias said. 
We have been doubling our energy efficiency.
    Since 2007, we passed an aggressive goal to reduce our load 
by 1.5 percent per year through energy efficiency, and that 
translates to saving roughly about 15 to 20 million dollars a 
year ever since. And some years we do 2 percent. And then, with 
the new goal that we have, we are going to do three times that.
    So that is one of the things that we have been looking at, 
is that it is not really about the rates that you are paying; 
it is really about the bills.
    So we have been very, very aggressive with our Sustainable 
Communities to work with those underserved communities to find 
out what do we need to do to bring them into the, I want to 
say, the zero-carbon economy.
    So we have been working with them to very aggressively do 
energy efficiency at their homes. We have been working with 
GRID America in terms of GRID Alternatives, to put solar on the 
roof. Now we are talking about looking at maybe we have NEM for 
multifamilies for low-income.
    And then, most importantly, we have been very, very 
intentional about directing our resources for job training. So, 
case in point, just the fact that we worked with the California 
Mobility Center and we were able to get $1.9 million to train 
folks to do light manufacturing for the region.
    I think you heard Ms. Mejias talk about there is a problem 
getting skilled workers. And so what better way to do it than 
to work with your community, to work with all those local, I 
want to say, nonprofit organizations, who those communities 
trust, and really develop the pipeline to do that, and in a way 
that creates those jobs that you need to talk about, good-
paying jobs for our communities.
    That is how we are doing it. So it is not about rates. It 
is all about what your customer wants.
    So our latest plan, we have a 93 percent--no, 97 percent 
approval from our customers saying this is what they want to 
do. And we are bringing our underserved communities right along 
with it.
    And that is why we are working with the air quality 
districts and local financiers to put zero-emission vehicles, 
so low-income customers can borrow those cars for a few hours 
and go do the stuff they need to do.
    Mr. Huffman. I appreciate that. I know I don't have time to 
compare California's energy bills with fossil fuel States like 
Louisiana, which would compare quite favorably. But you have 
helped, I think, sharpen the conversation in a helpful way.
    I yield back.
    Ms. Castor. Thank you, Rep. Huffman.
    Next, let's go to Rep. McEachin for 5 minutes.
    Mr. McEachin. Thank you, Madam Chair. And, again, thank you 
for convening this very, very important hearing.
    I would like to start off with Ms. Mejias, if I can.
    You were kind enough to discuss LIHEAP in your testimony. 
And of course LIHEAP is a vital program. In fact, the American 
Rescue Plan provides 4.5 billion in emergency funding for 
LIHEAP. And I have a bill to expand LIHEAP so that more of the 
funding can be used for solar energy.
    Please tell us more about the program. Why is it an 
important program? And how can we use it to protect public jobs 
and protect public health?
    Ms. Colon de Mejias. Thank you so much, Representative, for 
your question.
    LIHEAP is a phenomenal program that helps customers that 
are struggling with unaffordable energy bills pay those bills. 
And I see the opportunity here really to broaden that 
definition and ensure that we provide equal access to those 
customers that are struggling the most, the most disadvantaged 
and most at risk, to access things like renewable resources, as 
you have just suggested.
    But also to remove the barriers that exist in their housing 
currently so that they can access deeper retrofits, like air 
sealing and insulation upgrades. Some of the problems that we 
see in low-income housing that are often recipients of LIHEAP 
dollars are mold, asbestos, vermiculite, and knob-and-tube 
wiring, which makes it difficult to upgrade to, let's say, a 
ductless mini split, or even to install something like 
insulation that could cut their costs by 32 percent.
    So it is really important. And Mr. Lau has done a great job 
of giving some statistics. But I want you to know that, when I 
work in low-income housing, which is 50 percent of my clients, 
we reduce consumption by up to 32 percent. That is both in 
single-family and multifamily housing.
    And there are many studies that I could follow up with 
after this that explain how we can drive those bills down 
consistently and long-term so that we could reallocate some of 
those LIHEAP dollars to things that you have an interest in, 
like access to renewable resources for people who live in 
multifamily housing or low-income housing.
    I hope that answers your question.
    Mr. McEachin. It does indeed, and I thank you for your 
answer.
    Mr. Lau, we have seen research showing that gas appliances 
can worsen air quality--indoor air quality--and exacerbate 
health problems. We have also seen research showing that 
exposure to air pollution can increase the likelihood of severe 
impacts from COVID-19, even including death.
    How is your utility helping customers switch to electric 
alternatives, to gas water heaters and space heaters?
    Mr. Lau. Thank you, Congressman.
    So we have been very, very active in terms of advancing our 
building electrification efforts. So we offer right now 
rebates. We offer heat pump water heater rebates. We offer heat 
pump in terms of space heating rebates.
    So we have been working very, very closely with our 
communities in terms of showing them the benefits that, when 
you switch over from gas to electric, you save money, on 
average, I think a couple hundred dollars a year on family 
households. When you look at the things you pay for gasoline, 
and then when you combine the bill together, it is actually 
quite a bit of savings.
    And you remove the pollutants when you bring gas inside a 
home. It is actually safer. And you never have to worry about 
you forgot to turn off the stove because it is electric.
    And so we have been working very, very closely with our 
community to educate them about the benefit of electrification.
    And so that is really one of the most important things, as 
more and more people put in energy efficiency, as more and more 
DERs get put on the grid. Utilities need to have healthy growth 
through building and transportation electrification, because 
those are beneficial growth.
    And when they use clean energy, it helps to drive the costs 
lower for everyone, and it really does help to improve the air 
quality indoor and outdoor for everyone.
    Mr. McEachin. Well, thank you, sir.
    Madam Chair, I don't see a clock. So in an abundance of 
caution, and so I don't pluck your nerves or the committee's 
nerves, I will yield back.
    Ms. Castor. Thank you, Rep. McEachin.
    And I want to thank all of our witnesses for your very 
informative testimony on this Earth Week or U.S. Climate Action 
Week as we look forward to crafting bipartisan climate 
solutions that create jobs and protect the health and put money 
back into the pockets of consumers.
    We have a number of unanimous consent. Without--a number of 
documents to enter into the record, if you all would like to 
stick around for that.
    In response to Representative Palmer's interesting comments 
about forced labor in the solar supply chain, a Thursday, 
February 4, 2021, statement from the Solar Energy Industries 
Association, where 175 solar companies, including some of the 
top solar manufacturers in the world, announced that they have 
signed a pledge opposing forced labor in the solar supply 
chain, stating their commitment to help prevent these abhorrent 
practices and ensure that the products they are using do not 
have links to forced labor in the region of China or anywhere 
else in the world. And then hopefully we can bring some of 
those supply chains back to the U.S. and help create jobs.
    Also, without objection, we will submit, in response to 
Representative Palmer's statement that the American Recovery 
and Reinvestment Act wasn't a very good job creator when it 
came to clean energy, a report from 2016, the Council of 
Economic Advisors, that states that from 2009 to 2015 the 
energy-related investments from ARRA supported roughly 150,000 
jobs, and it leveraged $150 billion in non-Federal and private 
capital for clean energy investments.
    Also entering into the record an April 13 letter from the 
Outdoor Business Climate Partnership in support of our April 15 
hearing, ``Making the Case for Climate Action: The Growing 
Risks and Costs of Inaction''; an April 13 letter from We Mean 
Business Coalition, representing hundreds of companies and 
investors, calling for ambitious U.S. nationally determined 
contributions at at least 50 percent emissions reductions by 
2030; a March 23 letter from environmental justice 
organizations and national environmental groups outlining 
spending priorities for economic recovery legislation that 
reduces pollution, tackles climate change, and addresses 
environmental injustice while creating jobs in the hardest-hit 
communities; an April 19 letter from the Solar Energy Industry 
Association aligning policy recommendations to scale up solar 
energy development to meet clean energy goals; an April 20 
report from the Rhodium Group entitled ``Pathways to Build Back 
Better: Jobs From Investing in Clean Electricity,'' which 
highlights the goal of the Biden American Jobs Plan to create 
millions of new jobs through Federal investments in clean 
infrastructure and finds that decarbonization of electricity 
can create more than 600,000 jobs a year on average between 
2022 and 2031; and--Mr. Lau, you will like this--a statement 
from Congresswoman Doris Matsui regarding the Sacramento 
Municipal Utility District.
    [The information follows:]

                       Submissions for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                             April 20, 2021

ATTACHMENT: SEIA. (2021, February 4). Solar Companies Unite to Prevent
        Forced Labor in the Solar Supply Chain.

The press release is retained in the committee files and available at:
        https://www.seia.org/news/solar-companies-unite-prevent-forced-
        labor-
        solar-supply-chain

ATTACHMENT: White House Council on Economic Advisors. (2016, February 
25).
        FACT SHEET: The Recovery Act Made The Largest Single Investment 
        In Clean Energy In History, Driving The Deployment Of Clean 
        Energy, Promoting Energy Efficiency, And Supporting 
        Manufacturing.

    The fact sheet is retained in the committee files and available at:
        https://obamawhitehouse.archives.gov/the-press-office/2016/02/
        25/fact-sheet-recovery-act-made-largest-single-investment-
        clean-energy

                                   ++

                             April 13, 2021

House Select Committee on the Climate Crisis
H2-359 Ford Building
Washington, DC 20515

Dear House Select Committee on the Climate Crisis,

    As the three trade associations representing the U.S. outdoor 
industry, we are sending a letter in support of your hearing this week, 
``Making the Case for Climate Action: The Growing Risks and Costs of 
Inaction.''
    Our members, outdoor gear manufacturers, retailers and ski resorts, 
make up the majority of the outdoor industry that generates over $778 
billion in U.S. consumer spending annually and supports 7.6 million 
jobs. As an industry that is inextricably linked to the natural 
environment, we are sharply tuned into the impacts of climate change.
    Climate change is threatening our communities, infrastructure and 
economy. The Fourth National Climate Assessment identified outdoor 
recreation and tourism as key sectors that will be negatively impacted 
by climate change. Longer and hotter summers, prolonged droughts, 
increasingly devastating forest fires, rising sea levels, warming 
waters, reduced river flows and unreliable snowpack are all impacting 
the outdoor recreation economy. The unpredictability that comes with 
climate change presents challenges for outdoor recreation businesses 
with respect to planning, staffing, inventory, capital investments, and 
other key decision-making. Changes in snowpack and earlier snowmelt 
affect not just ski resorts, but fly fishing and rafting as well. The 
record 2020 wildfires, intensified by drought conditions across the 
West, profoundly impacted rural communities and could cost up to $150 
billion in economic losses.
    There is no time to wait to address climate change, and we support 
your efforts to increase the urgency to address it in Washington. Many 
of our member-businesses are already taking-action, setting ambitious 
science-based emissions targets and working to reduce their carbon 
footprints through our respective organization's climate programs. But 
the private sector cannot do this alone--we need systemic change that 
only a strong national climate policy can deliver.
    To achieve this, our organizations support:
        <bullet>  Prioritizing BIPOC communities in any climate and 
        infrastructure investments, as well as those communities 
        impacted in the transition to a clean energy economy.
        <bullet>  Curbing carbon emissions across the largest-emitting 
        sectors.
        <bullet>  Placing a price on carbon pollution to incentivize 
        emissions reductions.
        <bullet>  Fostering investments to accelerate the transition to 
        a zero-emissions economy including research, jobs and green 
        infrastructure.
        <bullet>  Providing incentives for renewable energy and 
        storage, cleaner transportation, clean technology innovation 
        and natural climate solutions.
    Our trade associations--representing more than 1,500 businesses 
with operations across all 50 states--have united against this common 
threat because together, we can be a stronger voice for the climate 
policies urgently needed to protect the places that we live, and the 
future of our industry. We know that addressing climate change is an 
opportunity to position our country for a successful, net-zero future 
and support a healthy outdoor recreation experience for all.

Sincerely,

National Ski Areas Association, Lakewood, CO;
Outdoor Industry Association, Boulder, CO;
Snowsports Industries America, Park City, UT

                                   ++

ATTACHMENT: Businesses and Investors Support U.S. Federal Climate 
Target in
        Open Letter to President Biden. We Mean Business coalition. 
        (2021, April 13).

The letter is retained in the committee files and available at:
        https://www.wemeanbusinesscoalition.org/ambitious-u-s-2030-ndc/

                                   ++

March 23, 2021

The Honorable Nancy Pelosi
Speaker of the House
U.S. House of Representatives
H-232, U.S. Capitol
Washington, D.C. 20515

The Honorable Kevin McCarthy         The Honorable Charles Schumer
Minority Leader                      Majority Leader
U.S. House of Representatives        U.S. Senate
H-204, U.S. Capitol                  S-221, U.S. Capitol
Washington, D.C. 20515               Washington, D.C. 20510

                                     The Honorable Mitch McConnell
                                     Minority Leader
                                     U.S. Senate
                                     S-230, U.S. Capitol
                                     Washington, D.C. 20510

Dear Speaker Pelosi, Majority Leader Schumer, Minority Leader McCarthy, 
        and Minority Leader McConnell:
    Our country is currently facing the devastating impact of 
intersecting health, economic, racial justice, environmental justice 
and climate crises. Too many communities of color, low-income 
communities, Tribal communities and environmental justice communities 
have long faced a toxic legacy of pollution as a result of 
environmental racism and are now suffering disproportionate economic 
and health impacts as a result of the COVID-19 pandemic. And they are 
on the front lines of climate change, bearing the brunt of climate 
impacts and most at risk of being deprived of the benefits of a clean 
energy transformation. For these communities, the current challenges 
are deeply interconnected, and require immediate action. Congress now 
has an opportunity to meet these crises head on through bold 
leadership, a commitment to justice, and significant, sustained and 
equitable investments in recovery with a focus on these aforementioned 
communities.
    During his first week in office, President Biden committed to 
achieve bold and concrete climate and environmental justice goals and 
launched an all-of-government approach to tackling climate change and 
addressing decades of environmental racism. With his Justice40 
commitment, the President directed his Administration to take immediate 
steps toward delivering 40% of the overall benefits from federal 
investment in clean energy and climate-resilient infrastructure and 
affordable housing to disadvantaged communities. This commitment is 
central to the success of any significant investment package and must 
be met or exceeded by Congress through a long-term investment program 
that centers equity and justice.
    We therefore urge Congress to advance transformative economic 
recovery legislation that confronts these ongoing crises by reducing 
pollution, tackling climate change and addressing environmental 
injustice while creating jobs in the hardest-hit communities. As 
described in our recommendations below, we urge Congress to support an 
investment package that improves public health and addresses health 
disparities, increases access to healthcare, and ensures uninterrupted 
access to potable water and reliable electricity for all households and 
communities. This investment package must also reduce pollution, create 
meaningful local job opportunities, support pollution-free energy and 
transportation options, and invest in affordable and climate-ready 
housing and other equitable and just community development programs.
    In addition, stimulus legislation must include safeguards to ensure 
that funds are spent in ways that comply with environmental regulations 
to avoid increasing public health and safety risks. Congress must 
ensure that projects supported by recovery legislation reduce locally 
harmful air pollution in communities coping with the cumulative impacts 
of multiple pollution sources, including low-income communities, Tribal 
communities, communities of color, and environmental justice 
communities. Congress must also direct companies receiving stimulus 
support with facilities located in or near low-income neighborhoods, 
Tribal communities and communities of color to significantly reduce 
locally harmful pollution, such as airborne particulate matter, in 
these communities. Finally, Congress must remove federal program cost-
share requirements for environmental justice and other disadvantaged 
communities and, where needed, adjust existing funding allocation 
formulas to ensure that at least 40 percent of federal program 
investments go directly to environmental justice and disadvantaged 
communities.
    We write today as a group of environmental justice organizations 
and national environmental groups working together to advance a bold 
and equitable national climate agenda.\1\ On behalf of our members and 
supporters, we urge you to address environmental injustice, tackle 
climate change and build an equitable and just economic recovery. 
Specifically, we urge you to include the spending priorities 
recommended below in any economic stimulus legislation and to advance 
this critical legislation promptly.
WATER
    Access to affordable clean water is critical, especially as 
households nationwide respond to the COVID-19 pandemic. Winter storms 
in Texas in February underscored the fragility of our nation's water 
systems when millions of people lost water access during the crisis. 
The below actions are long overdue. We recommend the following specific 
actions and funding:
    Keep national moratorium on water shutoffs for all households in 
place.
---------------------------------------------------------------------------
    \1\ Equitable and Justice National Climate Platform available at: 
www.ajustclimate.org
---------------------------------------------------------------------------
    Include $100 million for immediate potable water distribution, 
filter installation and sanitation systems for homes without access to 
these necessities. Spending should prioritize urban, rural, and Tribal 
communities who currently lack access to safe drinking water and 
adequate water and sanitation systems.
    Include $45 billion in grants and technical assistance dollars for 
the replacement of both household plumbing and lead services lines. 
Spending should prioritize households' whose plumbing systems have been 
corroded by municipal drinking water systems, such as in Flint, 
Michigan. This should also allow for home water filters for 
contaminants including but not limited to lead and PFAS. Trust in 
municipal water systems must be rebuilt.
    $1 billion over 5 years for School Drinking Fountain Replacement to 
help schools and daycare centers replace lead-bearing water fountains 
and faucets with water hydration stations with certified filters that 
meet the Q<1 standard.
    Include $150 million to establish three Community Water and Energy 
Resource Centers (CWERCs) in Michigan. CWERCs will resolve many 
ratepayer, infrastructure, and environmental issues to improve 
Michigan's essential freshwater resources through a decentralized 
approach to water treatment and infrastructure. Congress should make 
similar investments available to communities across the country without 
affordable access to safe drinking water and wastewater resources.
    Fund $100 billion for the Drinking Water and the Clean Water State 
Revolving Funds (SRFs), split evenly between the two SRFs, with at 
least 20 percent of funding distributed to disadvantaged communities as 
additional grants rather than loans and at least 20 percent of SRF 
funding set aside for investing in green infrastructure projects. These 
funds support investments in infrastructure and programs that are 
essential to providing safe and affordable drinking water to 
communities, protecting water systems, managing waste- and stormwater, 
building climate resilience and expanding economic opportunities for 
low-income communities and communities of color. The American Society 
of Civil Engineers gave U.S. drinking water and wastewater 
infrastructure ``D'' and ``D+'' grades, respectively, and estimates 
that the investment gap for these critical systems will reach $105 
billion by 2025.
    $3 billion for the Low-Income Household Drinking Water and 
Wastewater Emergency Assistance Program. This newly created program 
aims to increase water accessibility by helping low-income families pay 
their water bills and reducing their water utility rates. The program 
provides funds to owners or operators of public water systems or 
treatment works to reduce arrearages of and rates charged to low-income 
households. Congress should provide robust funding for this program and 
ensure the funds are properly directed to low-income households.
    $60 million annually for the Small & Disadvantaged Communities 
program, which assists public water systems in underserved, small and 
disadvantaged communities meet Safe Drinking Water Act requirements.
    $120 million annually for Alaska Native Villages and Rural 
Communities Water Grant program.
    $100 million annually for the U.S.-Mexico Border Water 
Infrastructure Program to provide drinking water and wastewater 
services to communities living on the border.
ENERGY
    Households must have access to affordable, reliable and sustainable 
electricity to ensure public health and safety and support an 
inclusive, just and pollution-free energy economy with high-quality 
jobs. Winter storms in Texas in February underscore the need for 
significant investments to increase electric grid resilience and 
reliability. We recommend that Congress include funding for the 
following programs in economic stimulus legislation:
    $3.9 billion for the Energy Efficiency and Conservation Block Grant 
(EECBG) Program. According to DOE's Office of Energy Efficiency and 
Renewable Energy, ``Through the 2009 American Recovery and Reinvestment 
Act (Recovery Act), the U.S. Department of Energy's (DOE's) Energy 
Efficiency and Conservation Block Grant (EECBG) Program provided $3.2 
billion in block grants to cities, communities, states, U.S. 
territories, and Indian tribes to develop, promote, implement, and 
manage energy efficiency and conservation projects that ultimately 
created jobs.'' Congress must provide $3.9 billion to the EECBG program 
through economic stimulus legislation and direct the DOE to prioritize 
program-spending in communities left behind by past and ongoing energy 
efficiency programs.
    $7 billion for the Low-Income Home Energy Assistance Program. 
LIHEAP assists families with energy costs related to energy bills and 
weatherization and energy-related home minor repairs. Stimulus 
legislation should include $7 billion for LIHEAP.
    $7 billion for the Weatherization Assistance Program (WAP). WAP 
provides weatherization for low-income households, leading to $238 or 
more in average savings on energy costs. WAP lowers energy bills for 
mid- and low-income families by supporting home energy efficiency 
improvements and supports clean energy jobs. Every year the requests 
for WAP support far exceed the funds available, leaving many households 
without the support they need to improve their energy efficiency and 
reduce energy costs. Congress should include $7 billion for WAP in 
stimulus legislation and strengthen the program to better reach and 
serve low-income families.
    $2 billion for Department of Energy grants. DOE energy grants 
should be used to build pollution-free energy microgrids and other 
projects that improve the reliability and resilience of energy 
infrastructure in communities and cities in all regions of the country, 
such as renewable energy, battery storage, and community-owned solar or 
wind projects. These grants should prioritize investments in low-income 
and communities of color, as well as Tribal and environmental justice 
communities. These funds should also be made available for technical 
assistance to partner with communities to design and implement these 
projects that meet community priorities and needs.
POLLUTION FREE TRANSPORTATION AND GOODS MOVEMENT
    Existing federal programs, with adequate funding, can substantially 
reduce air pollution from transportation and goods movement. These 
programs provide critical funds to shift fleets and equipment from 
diesel to zero emissions, while improving air quality and public 
health. We recommend that Congress support the following programs:
    $2.5 billion annually for Federal Transit Administration's Low or 
No Emissions Vehicle Program. Prioritize program spending in EJ 
communities confronted with the cumulative impacts of 
disproportionately high levels of pollution, particularly to reduce 
diesel pollution from medium- and heavy-duty vehicles and public 
transit fleets.
    $2.5 billion annually for the Diesel Emissions Reductions Act 
(DERA). Prioritize zero emissions replacement equipment and spending in 
communities confronted with the cumulative impacts of 
disproportionately high levels of pollution. These grants should be 
used to replace high polluting drayage trucks, locomotives, and cargo 
handling equipment with pollution-free technology, and to reduce 
emissions from related non-road sources of diesel in the goods movement 
sector, such as ocean going vessels idling at berth, tugboats, and 
cranes.
SAFE, HEALTHY AND POLLUTION-FREE COMMUNITIES
    To build safe and healthy communities and infrastructure, we 
recommend that Congress fund the following programs:
    $100 million for the National Institute of Environmental Health 
Science (NIEHS) Environmental Career Worker Training. The NIEHS 
Environmental Career Worker Training Program (ECWTP) provides job and 
safety training for disadvantaged and underrepresented members of 
communities of color and low-income communities to secure jobs in 
environmental restoration, construction, handling hazardous materials 
and waste, and emergency response. A 2015 report assessing the program 
found that ``an annual federal investment of $3.5 million in the ECWTP 
generates a $100 million return.'' The report found that the program 
increases the earning potential of those trained, increases tax 
revenue, lowers workplace injury and hiring costs, and reduces crime.
    $16 billion annually for a Civilian Climate Corps. President 
Biden's EO 14008 set up the process for creating a Civilian Climate 
Corps Initiative, inspired by the New Deal's Civilian Conservation 
Corps, to mobilize the next generation of conservation and resilience 
workers and maximize the creation of accessible training opportunities 
and jobs. Not only will this program provide much-needed jobs for 
communities, but it will also restore public lands, and help reduce 
local pollution. Congress should appropriate additional funding for the 
Civilian Climate Corps to bolster the program and allow more 
communities to reap the benefits, including by prioritizing training 
for people living in low-income and communities of color, and Tribal 
and environmental justice communities.
    $100 million for EPA's Superfund Job Training Initiative (SuperJTI) 
and the Environmental Workforce Development and Job Training (EWDJT) 
program. SuperJTI is a job readiness program that provides training and 
employment opportunities for people living in communities affected by 
Superfund sites, which are often low-income and communities of color. 
Participants learn technical skills to work on a broad range of 
construction projects, environmental remediation projects, and cleanup 
projects at Superfund sites. The EWDJT program recruits, trains, and 
places local, unemployed and under-employed residents with the skills 
needed to secure full-time employment in the environmental field. 
Participants are trained in Brownfields assessment and cleanup, 
hazardous waste operations, and other training related to wastewater, 
Superfund cleanup, and solid waste management. Curricula is usually 
based on local labor market assessments and employers' hiring needs. 
Congress should provide $100 million for these programs to spur local 
job growth and support pollution cleanup.
    $6 billion for the EPA Environmental Justice Small Grants (EJSG) 
Program. This program provides grants to communities to address 
environmental risks associated with high concentrations of pollution, 
to prepare for climate change effects, and to improve public health. In 
2019, the EJSG program provided roughly $1.5 million for one-year 
grants of up to $30,000 each. Given the disproportionate exposure to 
high levels of pollution, climate change effects and other impacts of 
historic economic and racial inequality, these grants provide critical 
resources to low-income communities, tribal communities and communities 
of color to improve community health and support job creation. Congress 
should increase the annual funding for the EJSG program to $6 billion, 
increase the grant size to up to $500,000, and increase the grant 
period from one to three years. In addition, the program should be 
renamed the ``Environmental Justice Grants Program.''
    Provide robust funding for grants for environmental justice 
communities, including EPA's Multipurpose Grants to States and Tribes, 
Environmental Justice Collaborative Problem-Solving (EJCPS) Cooperative 
Agreement Program, and the State Environmental Justice Cooperative 
Agreement (SEJCA) program. Multipurpose grants allow states and tribes 
flexibility to address their highest environmental priorities, 
especially PFAS cleanup. The EJCPS Program provides financial 
assistance to enable community-based organizations to partner with 
stakeholders from across industry, government, and academia to develop 
and implement solutions that will significantly address environmental 
and/or public health issues at the local level. The SEJCA program 
supports state activities that lead to measurable environmental or 
public health results in communities disproportionately burdened by 
environmental harms and risks. Congress should provide funding for 
these and other grants to empower communities and address environmental 
health risks.
    $1 billion for the EPA's Office of Community Revitalization (OCR) 
to support community-driven economic development through grants and 
technical assistance programs, and locally-led efforts to improve 
public health and the environment. This program has a critical role to 
play in community-based revitalization by aiding small and minority 
businesses that would otherwise struggle to participate in larger loan 
and grant programs. This funding across these programs should be 
directed and prioritized for environmental justice communities who are 
facing facility closure, such as coal-fired generating units or other 
oil and gas supply chains, such as closure of supply lines.
    $20 billion for Superfund Site Cleanup to protect communities from 
toxic pollution. Hurricanes Harvey, Florence, and Maria spotlighted the 
elevated public health and safety risks that Superfund sites pose to 
communities. Superfund cleanup spending is crucial to protect the 53 
million people living within three miles of the existing 1,836 
Superfund sites. Congress should increase Superfund site cleanup 
funding to $20 billion through economic stimulus legislation.
    $560 million for EPA to enforce environmental regulations. 
Industrial facilities and other companies must comply with 
environmental regulations to avoid increasing public health and safety 
risks, particularly at a time when public health is already threatened 
by the COVID-19 pandemic. To protect public health and safety and hold 
companies accountable when they violate environmental regulations, 
Congress should provide $560 million for EPA to ensure compliance and 
enforcement with environmental regulations. Congress should direct EPA 
to prioritize enforcement in communities of color and low-income 
communities, especially those overburdened with pollution.
    $30 billion for Community Development Block Grants (CDBG). The 
Department of Housing and Urban Development's (HUD's) CDBG program 
provides grants to states to support community development and address 
economic and public health challenges created by historic racial and 
economic inequality. CDBG grants support construction of affordable 
housing, programs to create economic opportunities and jobs, services 
for those in need, job creation, and improvement of community living 
conditions and quality of life. In light of ongoing public health and 
safety risks, Congress should provide $30 billion for CDBG to support 
equitable and just community development and access to safe, 
affordable, resilient and energy efficient housing. HUD should track 
this funding according to the Justice40 commitment to ensure that 
community support and investments benefit the communities with the 
greatest needs.
    $2 billion for the Community Development Financial Institutions 
(CDFI) Fund. CDFIs mobilize investments in public health and social 
services to support communities in transition, environmental justice, 
and frontline communities in all 50 states and Washington, D.C. Since 
CDFIs are located in the communities they serve, they are well-equipped 
to respond to the specific needs of the community. CDFIs are a proven 
tool for increasing financing of affordable housing, local businesses, 
and spurring job growth. Congress should provide $2 billion for the 
CDFI Fund to leverage roughly $24 billion in capital to increase the 
energy efficiency of existing buildings and expand access to clean 
renewable energy, quality affordable housing, and improve other 
critical community infrastructure and services in underserved 
communities.
    $100 billion for a Clean Energy and Sustainability Accelerator. A 
Clean Energy and Sustainability Accelerator, based on the idea of a 
National Climate Bank, would mobilize massive new investment into clean 
energy and transportation and resilient infrastructure. It has the 
potential to create millions of good-paying, green jobs and 
significantly decrease greenhouse gas emissions and local pollution. 
Congress should mandate that at least 40% of the Accelerator's 
investments and benefits be directed to environmental justice 
communities, including low-income communities and communities of color, 
communities overburdened by pollution, tribal communities, and 
communities in transition. These investments should focus on pollution 
free renewable energy, transportation and resilience projects that have 
the support and input of local EJ communities.
    $2 billion for Brownfields Redevelopment and Brownfields Area-Wide 
Planning Grants. EPA's Brownfields Program supports economic 
redevelopment by helping states and communities safely clean up and 
sustainably reuse former industrial and contaminated sites. Congress 
should increase the FY 2019 annual appropriation of $250 million for 
EPA's Brownfields redevelopment program to $2 billion to support 
economic development and sustainable approaches to local land use. This 
program should be implemented through community-driven planning that 
protects against community displacement.
    $100 million for the Community Action for a Renewed Environment 
(CARE) Program. The CARE program was a competitive grant program that 
aimed to reduce releases of and minimize exposure to toxic pollutants. 
Through the program, non-profits, schools, community organizations, or 
businesses formed cooperative agreements with state, local, or tribal 
governments or EPA to work together to assess toxics risks and come up 
with innovative solutions for solving the problem. Congress should 
revitalize this program and fund it at $100 million in the next 
economic recovery package.
    $10 million for USDA's Socially-Disadvantaged Groups Grant. This 
program helps provide technical assistance to socially-disadvantaged 
groups in rural areas through cooperatives and Cooperative Development 
Centers. Technical assistance can include feasibility studies, business 
plans, strategic planning, and leadership training.
    $100 million per year for USDA's Outreach and Assistance for 
Socially Disadvantaged Farmers and Ranchers and Veteran Farmers and 
Ranchers Program (The 2501 Program). This program helps provide 
outreach and technical assistance for underserved farmers, ranchers, 
and foresters, in owning and operating sustainable farms and ranches. 
The funds are used for conferences, workshops, and demonstrations on 
various farming techniques. The program has not only helped farmers and 
ranchers of color operate sustainable farms, but also fosters new 
partnerships and relationships with USDA.
    $5 billion for the Building Resilient Infrastructure and 
Communities and Flood Hazard Mitigation programs. These programs help 
create jobs and bolster community resilience by investing in measures 
to reduce extreme weather risks before disaster strikes, including 
natural infrastructure solutions like floodplain restoration, and 
accelerating flood mapping updates. Communities of color and low-income 
communities should be prioritized for this funding.
    Fund $10 billion for abandoned mine lands cleanup. These funds 
should be used to support the cleanup and restoration of abandoned coal 
mines on federal, state, Tribal, and private lands through the 
Abandoned Mine Lands program. This program spurs long-term, locally 
driven economic development opportunities, and helps address the 
problems created by old mine sites, including polluted streams, piles 
of coal waste, and hazardous erosion.
    Fund $10.02 billion to revitalize energy communities. Congress 
should fund at least $4.6 billion for the Economic Development 
Administration, the Appalachian Regional Commission (ARC) POWER 
Initiative, ARC Broadband, ARC Workplace re-entry strategies, the 
Assistance to Coal Communities program, and the Department of Labor's 
Employment and Training Administration, and fund $5.42 billion for 
National Dislocated Worker Grants. Congress should also hold coal 
companies liable for continued contributions to the Black Lung 
Disability Trust Fund by extending and increasing the coal excise tax 
for at least ten years. Congress must ensure energy communities are not 
left behind during the transition to a clean energy economy. Funding 
across these programs should be available for just transition for 
communities and workers who have been laid off as a result of facility 
closure.
    Fund $2 billion for orphan well cleanup. Congress should establish 
an orphan well cleanup fund to plug and reclaim dangerous and polluting 
abandoned oil and gas wells. Congress must also ensure the program is 
not an industry bailout and address both the existing orphan wells and 
the drivers of potential future orphan wells. This would help to create 
jobs and clean up pollution in communities that have long suffered at 
the hands of fossil fuel companies. This should be paired with bonding 
reform policy.
    Fund $500 million for the Urban & Community Forestry Program. 
Through diverse, innovative partnerships between municipalities and 
non-governmental organizations, this program helps create jobs in 
establishing, restoring, and sustaining forest cover. Improved forest 
cover benefits all communities by improving air quality, reducing 
energy burdens and extreme heat-risks, and absorbing carbon.
    Fund $7.3 billion for Federally Qualified Health Centers. These 
facilities provide essential, affordable, and quality primary care in 
underserved areas, and are supported by the Health Resources and 
Services Administration.
    $38.5 billion for the Substance Abuse and Mental Health Services 
Administration. These funds are needed to provide mental health support 
and substance-use treatment during the pandemic, and to offer increased 
outreach. Many people have been hit hard by the pandemic, causing high 
rates of clinical anxiety and depression in communities across the 
country. Additional funding for this program is essential to ensuring 
that people in need have access to prevention, treatment, and recovery 
services.
    Fund $5 billion for the HOME Investment Partnerships program. HOME 
funds can be used to build energy efficient and climate climate-
resilient affordable housing or provide direct rental assistance to 
low-income households, with a focus on electrification and access to 
transit. Congress should prioritize support for families in low-income 
communities and communities of color, including those overburdened by 
pollution.
    $500 million to expand air quality monitoring to protect fenceline 
communities. Lower income families and communities of color suffer and 
die disproportionately because of the long-term, cumulative health 
consequences and complications associated with toxic air pollution from 
facilities in their neighborhoods. Communities' need to know the 
pollution they are breathing is especially urgent because of research 
evaluating links between exposure to toxic air pollution and COVID-19 
vulnerability. Unfortunately, in too many communities and at too many 
facilities, there is either inadequate air monitoring or it is missing 
altogether. An essential step in better protecting fenceline 
communities and Americans everywhere is identifying which pollutants 
are currently being emitted and how much, and making that data publicly 
available. Congress should allocate funds for EPA to: immediately 
implement fenceline monitoring for toxic air pollutants at facilities 
contributing to high local cancer risk and other health threats; ensure 
that fenceline monitoring and continuous emission monitoring are core 
components of national emission standards for chemical, petrochemical 
and other sources of fugitive toxic air pollution; rapidly expand the 
NAAQS or national ambient air monitoring network through the addition 
of new monitoring stations and report on the status of the entire 
network with a plan to address repair, replacement and maintenance 
needs at all broken or failing monitors.
    Establish and fund programs to protect environmental justice 
communities from COVID-19 hazardous and medical waste. These programs 
are needed to improve monitoring, documentation, and reporting of 
medical waste disposal. Increased use of Personal Protective Equipment, 
including masks and gloves, has generated vast amounts of biomedical 
waste, endangering the health and safety of communities. This waste, 
including medical, nursing home, and testing waste, must be properly 
managed to reduce infection and environmental pollution.
    Invest in programs that address social determinants of health. 
Assessing the social, economic, and environmental factors that drive 
inequality, including poor housing conditions, food insecurity, and 
lack of mobility and educational opportunities, is critical to reducing 
the substantial and often deadly health disparities that have been 
spotlighted by COVID-19 but have long-existed for a number of chronic 
health conditions.
CUMULATIVE IMPACTS
    Environmental regulations and investments in pollution cleanup do 
not guarantee healthy environments for all communities. Many 
communities suffer from the cumulative effects of multiple pollution 
sources. Economic recovery legislation must not abandon or diminish the 
important goal of reducing all forms of toxic pollution, particularly 
in communities that are overburdened by high concentrations of 
pollution near where people live, work, go to school, play and pray. 
The recovery package is an important opportunity to support an 
innovative and comprehensive approach to reducing the health, 
environmental and economic disparities created by systemic racism. 
Congress must design the recovery package intentionally to ensure that 
it improves the health, well-being and prosperity of communities hit 
hardest by the pandemic while not creating additional health and 
environmental risks. Congress can do this by ensuring that the programs 
noted above, as well as other programs included in the recovery 
package, prioritize support for communities that are the most 
vulnerable to economic downturns, systemic racism and environmental and 
public health threats.
    Thank you for your consideration of these policies and programs.

    Sincerely,

    Alaska Wilderness League
    Alliance of Nurses for Healthy Environments
    As the Spirit Moves Us
    Audubon Naturalist Society
    Breast Cancer Prevention Partners
    Center for American Progress
    Center for Convention on Democratic Integrity lnc
    Center for Earth, Energy, and Democracy
    Clean Power Lake County
    Clean Water Action
    Climate Changemakers
    Coming Clean
    Conservation Voters of South Carolina
    Deep South Center for Environmental Justice
    Defenders of Wildlife
    EARTHDAY.ORG
    Earthjustice
    Ecology Center
    Endangered Species Coalition
    Environmental & Public Health Consulting
    Environmental Defense Fund
    Environmental Justice Health Alliance for Chemical Policy Reform
    Farmworker Association of Florida
    Friends of the Earth
    Generation Progress
    Green Door Initiative
    Green Education and Legal Fund
    Greenpeace USA
    GRID Alternatives
    Harambee House, Inc.
    Hispanic Access Foundation
    Inner City Green Team
    Kinetic Communities Consulting
    League of Conservation Voters (LCV)
    Los Jardines Institute
    Mainers for Accountable Leadership
    Michigan Environmental Justice Coalition
    Midwest Environmental Justice Network
    National Audubon Society
    Natural Resources Defense Council
    New Jersey Environmental Justice Alliance
    Nuclear Information and Resource Service
    Population Connection
    RE-AMP Network
    ReGenesis Community Development Corporation
    Riverkeeper
    Sierra Club
    The CLEO Institute
    The Nature Conservancy
    The Tishman Environment and Design Center
    The Wilderness Society
    Union of Concerned Scientists
    Urban Systems Lab, The New School
    WE ACT for Environmental Justice
    Women's Voices for the Earth

                                   ++

Chairwoman Kathy Castor
House Select Committee on Climate Crisis
H2-359 Ford House Office Building
Washington, DC 20515

    RE: MAKING THE CASE FOR CLIMATE ACTION: CREATING NEW JOBS AND 
CATALYZING ECONOMIC GROWTH

Dear Chairwoman Castor,
    On behalf of the Solar Energy Industries Association (SEIA), I 
first want to thank you for your leadership on behalf of the American 
people and the aggressive work you have already undertaken during the 
beginning days of this 117th Congress in work to get us on a trajectory 
to a 100 percent clean economy by 2050. As the House Select Committee 
on Climate Crisis prepares to discuss policy solutions at a hearing 
entitled ``Making the Case for Climate Action: Creating New Jobs and 
Catalyzing Economic Growth'' hearing I wanted to give you some specific 
details on how the solar industry has and continues to work 
aggressively towards your goals and President Biden's goal of a 100 
percent clean energy future that the committee seeks to attain, and the 
nation so desperately needs and deserves.
    SEIA has set a goal of solar energy being 20% of the US electricity 
mix by 2030. We have deemed the upcoming 10 years as the ``Solar+ 
Decade'' to represent not just the immense amount of solar energy that 
must be deployed for the US to reach both the committee's goal and 
those stated in the Intergovernmental Panel on Climate Change (IPCC) 
goal for climate mitigation. If we achieve this goal, the solar 
industry will have generated hundreds of billions of dollars in 
investment and created thousands of American jobs.
    As recently as last week, solar industry leaders took this message 
to lawmakers and Biden Administration officials in an advocacy blitz 
that highlights that highlighted the critical importance of additional 
policy action. As the legislative debate shifts toward infrastructure 
and labor issues, we feel that now is the time to take steps that will 
chart America's path to 100% clean electricity. Achieving that target 
will require U.S. solar capacity to reach nearly 700 GW by 2030, and 
annual installations will need to grow from 20 GW in 2020 to more than 
90 GW in 2030. This means that the U.S. will need an extra 270 GW of 
total solar capacity by 2030 to stay on track with our climate goals, 
which is 3 times greater than that we have installed in the entire 
history of solar in this nation. This additional capacity represents 
hundreds of thousands of U.S. jobs and billions in economic investment 
in clean energy that the solar industry, in all facets.
    With continued innovation and policy support, these goals become 
more than realistic. Wood Mackenzie found that the recent two-year 
extension of the solar Investment Tax Credit (ITC), increased solar 
installation forecasts by 17%. Smart policy works, and SEIA continues 
to fight for policies that incentivize solar deployment, streamline 
permitting and interconnection, encourage renewable energy development 
on public lands, and invest in solutions that provide long-term and 
sustained support for domestic manufacturing, among other priorities.
    One of the most urgent priorities is our workforce. For solar to 
account for 20% of U.S. electricity generation by 2030, the industry 
will need to grow to 600,000 workers. The solar industry was able to 
keep tens of thousands of workers on the payroll during the pandemic, 
but some residential solar companies experienced hardship and others 
are still having difficulty securing tax equity for their projects. The 
solar industry is made up of primarily small businesses, and these 
changes can make it hard to adjust, let alone grow their businesses and 
hire more workers.
    One near-term solution is to add a direct pay option for the ITC, 
which would make the industry less reliant on tax equity for financing. 
Another solution is a long-term extension of the ITC that would give 
the industry a long runway to continue its growth. Solar companies are 
major job creators, but they need certainty and a stable tax policy to 
go to work for our economy.
    SEIA also knows that addressing diversity, equity, inclusion, and 
justice within our industry must be a priority as we move towards an 
America dominated by clean energy. Our industry is taking important 
steps to focus on this work and ensure it is considered throughout all 
aspects of our industry. Incorporating environmental justice and equity 
into our policy priorities is a crucial aspect of our energy future and 
we continuing to develop best practices and any federal policy aiming 
to address climate change (and therefore impacting our industry) must 
simultaneously address the socioeconomic and systemic challenges faced 
by communities of color and other marginalized groups. The solar 
industry has a crucial role to play in the development of these 
policies.
    Our message to leaders in Washington is simple: Policies that 
support solar will help our economy recover, create jobs, and address 
climate change. The stakes are high, but they also present an 
incredible opportunity for America to prosper.
    Below are some policy priorities for the solar industry that will 
put us on the path to making 20% of the nation's energy mix solar while 
making electricity cost savings through solar accessible to every 
family and small business, putting the United States on a path to 
decarbonizing the electricity sector in its entirety:
Strong tax policy: The Investment Tax Credit
    The Investment Tax Credit (ITC) is the most effective proven 
federal policy on the books to deploy more solar energy. While the tax 
credit is due to step down from 30% at the end of this year to 26% then 
eventually phase out over three years for residential solar and remain 
at 10% for commercial & utility-scale solar, SEIA is advocating for a 
delay in the stepdown of this integral incentive policy. The ITC has 
been the most effective tool for allowing companies to finance solar 
installations, and with other compounding factors affecting the 
deployment of solar such as trade policy and tariffs, we urge an 
extension of this important credit. Extending clean energy tax credits 
is one of the most effective tools available to help meet climate goals 
while creating over a hundred thousand new jobs and tens of billions of 
dollars in economic growth.
Other Issue Areas
    SEIA has identified the following areas as beneficial drivers for 
solar energy including:
        <bullet>  Grid modernization and transmission: Grid 
        modernization efforts should include establishment of a robust 
        and transparent benefit cost framework to inform utility 
        planning and ensure full and fair valuation of distributed 
        energy resources. To reduce transmission barriers to the 
        further expansion of utility-scale solar, we need a 
        disciplined, well-coordinated, cross-jurisdictional regional-
        level transmission planning effort.
        <bullet>  US manufacturing: To help ensure U.S. manufacturers 
        can succeed in this environment, the United States must 
        leverage its unique technology and innovation ecosystem, 
        including national labs, regional and local incubators, and the 
        venture capital investment community.
        <bullet>  Resiliency & cybersecurity: Ensuring resiliency 
        requires a focus on developing technological solutions for 
        reliability, including developing industry guidance for 
        equipment corrosion protection in design and installation, 
        establishing grid management and source-based maintenance 
        programs that ensure integration as main or back-up systems and 
        developing industry-wide procedures for operations and 
        maintenance.
        <bullet>  Workforce development: To reach 20% of generation by 
        2030, our estimates show that nearly 400,000 jobs will be added 
        over the next decade, with many of them coming in emerging 
        states and regions that will require significant training and 
        workforce development.
        SEIA is proud of the amount the solar industry has contributed 
        to decarbonizing the electricity system, but we know we still 
        have a long way to go. With your support in addition to our 
        industry taking on aggressive collaboration to work with other 
        technologies and partners, we are confident that the Solar+ 
        Decade will be fruitful for the American economy, American 
        workers, and homeowners and small businesses. Thank you for 
        your consideration of these policies and continued dialogue 
        with the solar industry.

                                                             Sincerely,
                                              Abigail Ross Hopper, Esq.
                                                        President & CEO

                                   ++

ATTACHMENT: Larsen, J., Mohan, S., & Houser, T. (2021, April 20). 
``Pathways
        to Build Back Better: Jobs from Investing in Clean 
        Electricity.'' Rhodium Group.

The report is retained in the committee files and available at:
        https://rhg.com/research/build-back-better-jobs-electric-power/

                                   ++

               Statement from Congresswoman Doris Matsui

              House Select Committee on the Climate Crisis

                        Full Committee Hearing:

                 ``Making the Case for Climate Action: 
           Creating New Jobs and Catalyzing Economic Growth''

                  Tuesday, April 20th at 12PM via Zoom

    Chairwoman Castor, Ranking Member Graves, and members of the 
Committee:
    In October of last year, Mr. Paul Lau was appointed as the Chief 
Executive Officer (CEO) of my local utility company, the Sacramento 
Municipal Utility District (SMUD). But his leadership to fulfill SMUD's 
mission to provide clean, safe, and affordable electricity to 
Sacramentans began long before. Paul is a son of Sacramento. Originally 
from Hong Kong, he immigrated with his family to the city at the age of 
12. He attended high school and college in Sacramento and has built his 
professional career for the last 38 years at SMUD. It all started in 
1982 when he was a young electrical engineering student at California 
State University, Sacramento interning at the company. I am honored to 
have him as my constituent and as a fellow leader serving the 
California Capital Region.
    Paul's work ethic and commitment to SMUD and the Sacramento 
community have positioned him to be a part of the utility's executive 
team for more than 12 years, most recently serving as chief grid 
strategy and operations officer, and now as CEO. His expertise in 
emerging energy technologies has also led him to serve as Vice Chair of 
the Large Public Power Council Emerging Trends Task Force, on the 
Boards of the Smart Electric Power Alliance and the Electric 
Transportation Community Development Corporation, on the Sacramento 
Asian-Pacific Chamber of Commerce, and as an Alternate Commissioner of 
the Balancing Authority of Northern California. In his new leadership 
role as CEO, Paul will use his nearly four decades of experience to 
spearhead the most ambitious carbon-reduction goal of any utility in 
the United States, SMUD's `Zero Carbon' Plan.
    As you know, SMUD is one of the nation's largest community-owned 
utilities, operating on a not-for-profit basis and supplying 
electricity to 1.5 million residents in the California Capital Region 
for over 75 years. As a strong partner in the fight against the climate 
crisis, the company has set ambitious goals to meet and exceed 
California's rigorous environmental requirements: it was the first 
large utility in the state to reach a 20 percent renewable portfolio 
standard and in 2018 the utility's board adopted a plan to put SMUD on 
a path to net-zero emissions by 2040. Now, SMUD seeks to build on its 
robust legacy by becoming the first utility company in the nation to 
completely eliminate carbon emissions from its power supply by 2030.
    Paul and SMUD are not just leading the way on deep decarbonization, 
they are incorporating energy equity and local workforce development as 
they chart a path towards a clean energy future. SMUD is also focused 
on expanding clean energy access to underserved communities, creating 
green jobs, and building a pipeline to recruit, train, and hire diverse 
communities in the region for this transition. They seek to build 
community wealth by investing in partnerships with local organizations, 
colleges, and universities. Additionally, through its work with the 
California Mobility Center--a public-private consortium--SMUD aims to 
establish Sacramento as a center of electric mobility innovation. Its 
investments in local workforce development for electrical, solar, and 
EV charging equipment combined with charging infrastructure efforts 
through the public-private consortium are estimated to generate $2.5 
billion in economic activity in the region in the coming years.
    Clean energy deployment and green jobs are a part of the future 
that our communities deserve, and SMUD is an exceptional example that 
we can achieve our goals to build back better sustainably. I am honored 
to work alongside a progressive, community-owned, and community-minded 
utility company and thankful to have Mr. Lau's expertise and leadership 
guiding clean energy efforts in Sacramento and beyond.
    Thank you for your time and I yield back.

    Ms. Castor. As you know, she is your biggest fan.
    And so, without objection, all members will have 10 
business days within which to submit additional written 
questions for the witnesses, and I ask our witnesses to please 
respond promptly.
    And just as a reminder, to tune in to President Biden's 
Leaders Submit. What a refreshing time it is that the United 
States of America is leading again on the world stage to urge 
China and all other countries to go farther and faster on their 
NDCs under the Paris Climate Accord.
    Secretary Blinken said yesterday that here in the U.S. we 
have around 4 percent of the world's population, but we 
contribute nearly 15 percent of global emissions. If we do our 
part at home, we can make a significant contribution to 
addressing this crisis. And I know that we will then inspire 
others to go farther and faster as well.
    So thank you all for being here today. And we are 
adjourned. Thanks so much.
    [Whereupon, at 1:57 p.m., the committee was adjourned.]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                        [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
